<html>
<title> - FEMA PREPAREDNESS IN 2007 AND BEYOND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  FEMA PREPAREDNESS IN 2007 AND BEYOND 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2007

                               __________

                           Serial No. 110-62

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-332 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director



































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2007....................................     1
Statement of:
    Ashwood, Albert, director, Oklahoma State Emergency 
      Management Agency, president, National Emergency Management 
      Agency; Christopher Geldhart, director, Office of National 
      Capital Region Coordination; Dewayne West, director of 
      emergency management for Johnston County, NC, National 
      Association of Counties, the International Association of 
      Emergency Managers; Darrell Darnell, director, District of 
      Columbia Homeland Security and Emergency Management Agency; 
      and Kathleen Tierney, director, Natural Hazards Center, 
      University of Colorado, Boulder............................   148
        Ashwood, Albert..........................................   148
        Darnell, Darrell.........................................   171
        Geldhart, Christopher....................................   155
        Tierney, Kathleen........................................   179
        West, Dewayne............................................   162
    Paulison, R. David, Administrator, Federal Emergency 
      Management Agency; Major General Terry Scherling, Director 
      of the Joint Staff National Guard Bureau; and Matt Jadacki, 
      Deputy Inspector General, Office of the Inspector General, 
      Department of Homeland Security............................    14
        Jadacki, Matt............................................    46
        Paulison, R. David.......................................    14
        Scherling, Major General Terry...........................    39
Letters, statements, etc., submitted for the record by:
    Ashwood, Albert, director, Oklahoma State Emergency 
      Management Agency, president, National Emergency Management 
      Agency, prepared statement of..............................   151
    Darnell, Darrell, director, District of Columbia Homeland 
      Security and Emergency Management Agency, prepared 
      statement of...............................................   173
    Geldhart, Christopher, director, Office of National Capital 
      Region Coordination, prepared statement of.................   157
    Jadacki, Matt, Deputy Inspector General, Office of the 
      Inspector General, Department of Homeland Security, 
      prepared statement of......................................    49
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Report of the Intergovernmental Panel on Climate Change..    85
        Prepared statement of....................................    10
        Prepared statement of Mr. Jenkins........................   110
    Paulison, R. David, Administrator, Federal Emergency 
      Management Agency, prepared statement of...................    17
    Scherling, Major General Terry, Director of the Joint Staff 
      National Guard Bureau, prepared statement of...............    39
    Tierney, Kathleen, director, Natural Hazards Center, 
      University of Colorado, Boulder, prepared statement of.....   182
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   204
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     3
    West, Dewayne, director of emergency management for Johnston 
      County, NC, National Association of Counties, the 
      International Association of Emergency Managers, prepared 
      statement of...............................................   165


                  FEMA PREPAREDNESS IN 2007 AND BEYOND

                              ----------                              


                         TUESDAY, JULY 31, 2007

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Towns, Kucinich, Davis of 
Illinois, Tierney, Clay, Watson, Higgins, Norton, Murphy, 
Sarbanes, Davis of Virginia, Shays, McHugh, Westmoreland, 
McHenry, Foxx, Sali, and Jordan.
    Also present: Representative Jindal.
    Staff present: Phil Barnett, staff director and chief 
counsel; Kristin Amerling, general counsel; Greg Dotson, chief 
environmental counsel; David Leviss, senior investigative 
counsel; Erik Jones and Susanne Sachsman, counsels; Daniel 
Davis, professional staff member; Earley Green, chief clerk; 
Teresa Coufal, deputy clerk; Caren Auchman, press assistant; 
Zhongrui ``JR'' Deng, chief information officer; Leneal Scott, 
information systems manager; Jaron Bourke, staff director, 
Domestic Policy Subcommittee; Noura Erakat, counsel, Domestic 
Policy Subcommittee; Jean Gosa, clerk, Domestic Policy 
Subcommittee; Evan Schlom, intern, Domestic Policy 
Subcommittee; David Marin, minority staff director; Larry 
Halloran, minority deputy staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; Keith 
Ausbrook, minority general counsel; Steve Castor, minority 
counsel; Grace Washbourne, minority senior professional staff 
member; John Cuaderes and Larry Brady, minority senior 
investigator and policy advisors; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; Benjamin Chance, 
minority clerk; Ali Ahmad, minority deputy press secretary; and 
Meredith Liberty, minority staff assistant correspondence 
coordinator.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Today the committee is holding its second day of hearings 
on the Federal Emergency Management Agency. Less than 2 weeks 
ago, the committee examined the Agency's response to reports of 
formaldehyde in FEMA trailers on the Gulf Coast. Our hearing 
revealed an inexcusable indifference within FEMA to the 
suffering of displaced hurricane victims living in the 
contaminated trailers.
    As good oversight should, the hearing also served as a 
catalyst for reform. FEMA announced that it would reverse its 
policy and begin testing occupied trailers for dangerous levels 
of formaldehyde.
    Today's hearing will focus on FEMA's preparedness going 
forward. We will take a broader look at the Agency and ask 
whether the Federal Government is better prepared now for 
natural disasters than it was when Hurricane Katrina struck.
    These hearings are part of a series of hearings in this 
committee on how to make Government work. The goal of these 
hearings is to spotlight deficiencies in Government and restore 
public confidence in key Government agencies. FEMA used to be 
widely admired for its effectiveness, but, as Hurricane Katrina 
showed, cronyism, under-funding, and lack of leadership turned 
FEMA in to the most-ridiculed agency in Government.
    The question we will ask in today's hearing is a simple 
one: has FEMA restored its capacity to serve the public 
effectively in times of crisis?
    I would like to thank two Members in particular for their 
work on this hearing. Ranking Member Davis requested this 
hearing and worked closely with us in selecting the witnesses 
and organizing the hearing. As the Chair of the House Select 
Committee on Hurricane Katrina in the last Congress, he looked 
in detail at what went wrong at FEMA. His expertise and 
perspective will benefit all committee members.
    I also want to thank the Chair of our Domestic Policy 
Subcommittee, Dennis Kucinich, for his leadership. Oversight of 
FEMA falls within his subcommittee's jurisdiction, and he and 
his staff have devoted many hours to examine FEMA and preparing 
for today's hearing.
    We have two panels of witnesses today and I look forward to 
their testimony on the important issues of FEMA's preparedness.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Mr. Davis, I want to recognize you at this 
point.
    Mr. Davis of Virginia. Thank you very much, Mr. Chairman. 
Good morning.
    Before embarking on their summer travels, every American 
family kicks the tires, checks the oil, and makes sure their 
vehicle is ready for the ride. Before Congress heads home for 
the August recess, it is important that we do the same: we 
check under the hood of the Federal Emergency Management 
Agency, the vehicle meant to carry us safely through the 
hazards in our path.
    Disasters are indiscriminate, completely nonpartisan, 
purveyors of devastation and grief. Reflecting that hard 
reality, this hearing is also a nonpartisan review of FEMA's 
readiness to perform its vital mission.
    Chairman Waxman and Domestic Policy Subcommittee Chairman 
Kucinich agreed with our request to continue the committee's 
active oversight of post-Katrina preparedness issues. We 
appreciate their working with us to frame this experience as a 
constructive examination of reforms underway at FEMA.
    Hurricane Katrina laid bare devastating dysfunction in the 
Nation's catastrophic response capabilities. We saw critical 
failures in essential response functions, personnel, planning, 
logistics, communications, and fiscal stewardship. The Select 
Committee on Katrina, which I chaired, produced 90 substantive 
findings to guide the reforms and restoration of national 
emergency systems. A White House report made 125 
recommendations. The administration acknowledged the need to 
strengthen FEMA and untangle the crossed wires that left States 
and localities wondering who was in charge and when needed help 
would arrive.
    Many attributed FEMA's problems to the organizational and 
fiscal price the Agency paid when it was merged into the 
Department of Homeland Security. Preparedness programs were 
separate from response planning. Logistic systems atrophied. 
Budget constraints took a toll. Key personnel with essential 
skills and institutional memories left. And communications with 
State and local stakeholders got muddled passing through layers 
of bureaucratic filters.
    Some of us thought FEMA had to be independent again, 
liberated from the strangling, all-terrorism myopia at DHS and 
empowered once again to pursue a proven all-hazards approach.
    To cure what the Select Committee characterized as a 
failure of initiative, Congress enacted the Post-Katrina 
Emergency Reform Act so that future catastrophes would trigger 
a far more proactive, robust, and coordinated response to those 
in need of help. The new FEMA to emerge, although not fully 
independent, was to be autonomous enough within DHS to take 
charge when disaster struck. Preparedness grants and training 
were brought back home to FEMA. Pre-positioning plans and 
logistics systems were modernized. Lines of authority and 
accountability were clarified.
    Today we take a timely look at how those reforms are being 
implemented and what still might prevent FEMA from functioning 
effectively as the Nation's trusted agent and premier catalyst 
for disaster preparation, response, and mitigation.
    As we head into the heart of what is still predicted to be 
a very active hurricane system, we see troubling signs that key 
reforms have not yet taken hold, and that FEMA may still be 
hobbled with the larger DHS structure.
    Specifically, lines of authority still seem blurred and 
local officials remain frustrated over high-handed, indecisive, 
and slow answers from Washington, when they get any answers at 
all. The recent appointment of principal Federal officials and 
Federal coordinating officers by Secretary Chertoff appears to 
have bypassed FEMA altogether. Governors were told to direct 
any questions about these key positions to DHS directorate not 
even in the emergency response chain of command.
    The new logistics systems may not be ready for prime time, 
and the Government Accountability Office reports FEMA still 
lacks a strategic work force plan and a related human capital 
strategy to attract and retain the right people with the 
requisite skills and experience to sustain effective response 
operations.
    These are all indications DHS may again be following what 
one of today's witnesses cites as ``the spare tire theory of 
emergency management.'' Under that discredited premise, 
disaster response capabilities could be left locked away and 
forgotten, on the assumption they will work just fine when we 
need them. But when Katrina struck and we dug FEMA out from 
under all the terrorism manuals in DHS' trunk, those critical 
tools had gone dull and flat from neglect. That can't happen 
again.
    Like maintaining the family sedan, keeping the Nation's 
emergency response vehicle running requires regular lubrication 
and frequent road tests. Today's oversight hearing is our part 
of the new FEMA's maintenance program.
    I join the chairman in welcoming our witnesses. We look 
forward to their testimony and to a candid discussion of our 
Nation's readiness to overcome the predictable and the 
unexpected hazards on the road ahead.
    Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Chairman Kucinich.
    Mr. Kucinich. Thank you very much, Chairman Waxman, Ranking 
Member Davis. I appreciate the opportunity to work with you and 
cooperate with you on these important hearings regarding the 
Government's lack of appropriate response to post-Hurricane 
Katrina.
    The totally inadequate response to and the problems 
plaguing the recovery and reconstruction from Hurricane Katrina 
has spawned numerous reports, recommendations, and legislation. 
We would all like to believe that the executive branch's 
response to all of that oversight deserves its preferred name, 
the new FEMA. Today we will examine whether the new FEMA lives 
up to its moniker.
    On August 29, 2005, Hurricane Katrina struck the Gulf 
Coast. It devastated the region, destroying homes, businesses, 
and properties, flooded New Orleans with more than 100 billion 
gallons of water. In total, the storm took the lives of more 
than 1,500 people.
    This vast swath of destruction across the Gulf Coast tested 
all levels of government. State and local first responders were 
almost immediately overwhelmed, and Federal agencies led by 
FEMA struggled to respond to the hurricane's impact. FEMA's 
response displayed a shocking lack of disaster preparation and 
response capabilities.
    As we approach the 2-year anniversary of the country's last 
catastrophic disaster, we are taking a look at FEMA and seeing 
if FEMA has learned the lessons from Hurricane Katrina, and we 
will be looking to see if the so-called new FEMA is not just 
preparing for the last disaster but for the next national 
emergency, whatever that might be, whether from an earthquake 
or influenza pandemic or some other type of natural disaster.
    The Government Accountability Office has stated that there 
are three fronts necessary to prepare for, respond to, and 
recover from a catastrophic disaster. Those areas are 
leadership, capabilities, and accountability. The Federal 
Government's response to Hurricane Katrina demonstrated a 
failure on all three fronts. Roles, responsibilities, and lines 
of authority were not clearly defined. The adequacy of the 
Government's capabilities for communication, evacuation, search 
and rescue, mass care, and sheltering and logistics were 
challenged, and FEMA likely made between $600 million and $1.4 
billion in improper and possibly fraudulent payments.
    These failures spawned a number of Federal investigations, 
findings, and recommendations, and, following in-depth 
investigations, reports were published by the House Select 
Bipartisan Committee to Investigate Preparation for and 
Response to Hurricane Katrina, the Senate Homeland Security and 
Government Affairs Committee, the White House Homeland Security 
Council, the Inspector General of the Department of Homeland 
Security, and FEMA, itself. These reports identified a variety 
of successes, failures, and recommendations for improving the 
Federal response to a catastrophic disaster.
    These reports were not the only Federal response. We had 
the Post-Katrina Emergency Management and Reform Act of 2006, 
assessed by Congress, signed into law by the President in order 
to strengthen FEMA and ensure that it is better prepared for 
the next catastrophic disaster. We know that FEMA has begun 
implementing the Post-Katrina Act. We know that it has made 
significant changes. We are to evaluate whether or not the new 
FEMA, as it now stands, is capable of handling the next 
disaster, and we have learned that, despite the strides FEMA 
has made, many challenges still remain.
    Some of those challenges include the following: FEMA has 
not released the National Response Plan, and the country is 
already 2 months into the 2007 hurricane season.
    State and local officials have raised concerns about FEMA's 
lack of independence and its ability to provide assistance and 
coordination.
    FEMA does not appear to be tracking which recommendations 
it has and has not implemented from the reports published by 
the White House, Congress, and other Federal agencies.
    It is not clear whether or not FEMA is ready to coordinate 
large-scale evacuations or mass care and sheltering. FEMA has 
created over 180 mission assignments with over 20 Federal 
agencies, but it is not clear whether proper FEMA oversight 
exists to effectuate those missions in the case of a disaster.
    As of July 2007, 24 of 77 of executive positions at FEMA 
were not filled, and as this committee learned 2 weeks ago at 
its trailer hearing, FEMA is still making tragic mistakes in 
the Gulf Coast.
    To be sure, FEMA's lack of preparing for and responding to 
a catastrophic disaster is daunting. The evacuation of an 
entire metropolitan area following a disaster is very 
complicated. It is expensive and difficult. The task of 
coordinating mass care and sheltering thousands of people is 
very complicated. It is expensive.
    FEMA has a tough mission, but no one, as far as I know, has 
told us the assignment is too tough and that the mission cannot 
be accomplished, so FEMA has a tough but doable job, and this 
committee's duty is to conduct oversight to ensure that FEMA 
can lead a disaster response; prepare for, prevent, and help 
areas recover from disasters. So today this committee will 
examine whether FEMA is achieving that function.
    Again I want to thank Mr. Waxman and Mr. Davis for 
suggesting today's hearing. Mr. Davis, of course, has chaired 
the House Select Bipartisan Committee to Investigate 
Preparation for and Response to Hurricane Katrina, conducting 
important oversight on disaster preparedness.
    I want to thank Mr. Waxman and Mr. Davis. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Thank you, Mr. Kucinich.
    I now want to call on the ranking member of the Domestic 
Policy Subcommittee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman and Ranking Member Davis.
    This is the type of oversight the American public expects 
of us, and what we discovered today, needless to say, cannot be 
nearly as much as we have already seen here.
    What we do want to find out today is whether or not at all 
levels of government we are prepared post-9/11, when we clearly 
were not prepared. The Katrina response pointed out weaknesses 
we had in disaster preparedness and disaster response.
    I want to join with my colleagues in recognizing the 
ranking member and my friend, Tom Davis, who spent countless 
hours as the chairman of the Bipartisan Select Committee to 
Investigate the Response to Katrina, and the excellent work he 
did on a bipartisan basis to expose the flaws in our country's 
disaster preparedness regime. His work led to what we will be 
talking about today, post-Katrina reform legislation, and today 
we are here to find out if anything has changed in the world of 
disaster preparedness.
    I feel strongly that it is likely that we will be told we 
are ready. I feel equally strongly that we on the dias will 
have a responsibility to figure out how we fill in the gaps 
that clearly, clearly exist but, in fact, have either not been 
recognized or have been down played as to their importance.
    Specifically, we need answers to the following: is there a 
new FEMA, and how is it different than the one that responded 
so poorly in the Gulf Hurricanes? What is the relationship 
between the Federal Government, State governments, and local 
governments? Is it stronger? Is it ready? Are they partners, or 
is one government calling the shots and the others expected to 
fall in line?
    Disaster preparedness and response should not be the sole 
responsibility of the Federal Government. State and local 
governments should be first in line of defense when it comes to 
preparedness and response and should be listened to by Federal 
agencies. The bully tactics that were clearly in place cannot 
be accepted, nor can, in fact, a refusal to cooperate, both of 
which, as well reported, we saw in the post-Katrina report.
    The Federal Government needs to supplement State and local 
governments, not supplant them. But, as was evidenced in 
Hurricane Katrina, when the Federal Government is needed, they 
need to be there swiftly and in coordinated fashion and instill 
the confidence to those affected by the disaster.
    I hope that at the end of today's hearing I can tell my 
constituents that we can count on the government at all 
levels--I repeat, all levels--to be there for them in the time 
of disaster.
    Clearly, the disaster like what happened after Hurricane 
Katrina will not happen in California. I am also going to be 
very concerned about not are we ready for Katrina II, but are 
we ready for an earthquake, a sizable earthquake, a Northridge 
Earthquake times two in California? California has had a long 
history of events that are more catastrophic in the initial 
stages and often followed by fire than anything we saw in New 
Orleans.
    So, although I very much want to see what we have done 
post-Katrina, it is my obligation and I am sure the chairman's 
obligation as California Members to ask about other disasters 
and other responses not previously in the report.
    Mr. Chairman, once again I thank you for your continued 
interest and yield back.
    Chairman Waxman. Thank you very much, Mr. Issa.
    We are pleased to welcome for our first panel Mr. R. David 
Paulison, the Administrator of the Federal Emergency Management 
Agency; Major General Terry Scherling, Director of the Joint 
Staff National Guard Bureau; and Mr. Matt Jadacki, Deputy 
Inspector General of the Office of the Inspector General, 
Department of Homeland Security.
    We are pleased to welcome you to our hearing today. Your 
statements will be made part of the record in full. We are 
going to have a clock that will time 5 minutes. We would like 
you to try to keep as close to the 5-minute period as possible.
    It is the practice of this committee to swear in all 
witnesses, so if you would, please stand and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will show that the witnesses 
answered in the affirmative.
    Mr. Paulison, why don't we start with you.

    STATEMENTS OF R. DAVID PAULISON, ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY; MAJOR GENERAL TERRY SCHERLING, 
  DIRECTOR OF THE JOINT STAFF NATIONAL GUARD BUREAU; AND MATT 
  JADACKI, DEPUTY INSPECTOR GENERAL, OFFICE OF THE INSPECTOR 
            GENERAL, DEPARTMENT OF HOMELAND SECURITY

                 STATEMENT OF R. DAVID PAULISON

    Mr. Paulison. Thank you, Mr. Chair and Ranking Member 
Davis, and other distinguished members of the committee. I do 
welcome the opportunity to appear before this committee to 
discuss how FEMA has prepared for the 2007 hurricane season in 
the wake of our recent reorganization.
    Based on the many lessons learned, FEMA instituted numerous 
reforms to improve our ability to respond to and recover from 
disasters. In addition to FEMA's internal transformation that 
we embraced to improve this Agency, the Department of Homeland 
Security and FEMA have been working together closely to 
implement adjustments included in the Post-Katrina Emergency 
Reform Act. The result is a new FEMA that is strong, it is more 
nimble than it was just a year ago. It has improved our 
preparedness posture for the 2007 hurricane season.
    You can see the impact of these changes in our recent 
response this year to Florida, Georgia, Alabama, the Kansas 
tornados, the nor'easter that affected the States across the 
mid-Atlantic and New England, and recent flooding in the 
Plains.
    In each of these cases, FEMA quickly was an engaged partner 
with the State. We deployed operational and technical experts. 
We rolled logistics and communication capabilities, and we did 
this even before disaster declaration. We also coordinated with 
the Governor's office to facilitate the Presidential 
declaration.
    It was also FEMA that supported and helped facilitate an 
effective, unified command system amongst the many Federal, 
State, and local partners involved in the responses. We call 
this an engaged partnership. Our response to these diverse and 
numerous events across the breadth of this great country are 
evidence of the new FEMA's readiness for the 2007 hurricane 
season.
    Today I will focus on our advanced preparations, our plans 
for operations during the storm, and our improved ability to 
help with the short and long-term recovery.
    Local governments will always be the first to respond, but 
FEMA does have an important role to play. The old paradigm of 
waiting for State and local governments to become overwhelmed 
before providing Federal assistance simply does not work. We 
have to go in as partners. This engaged partnership with FEMA 
will strengthen our relationship with key State and local 
partners, and we will also recognize that one size does not fit 
all when it comes to responding to States.
    FEMA is helping each State analyze its strengths and 
weaknesses; thus, our planning is more informed and we can 
better anticipate specific needs and quickly move to support 
each State.
    The reorganization has provided additional strength to 
these efforts. The Post-Katrina Reform Act establishes 10 
regional administrator positions. This spring we have filled 
all 10, and not just with anyone, but with solid, experienced 
managers, each with 20 and 30 years of hands-on experience 
dealing in emergency management.
    We have added senior staff at the national level, with a 
new Disability Coordinator, Lou Daniel; the new U.S. Fire 
Administrator, Chief Greg Kay; our Logistics Management 
Assistant Administrator, Eric Smith; and the pending 
confirmation of Assistant Administrator for Preparedness, 
Dennis Schrader.
    I would like to highlight one office that has joined FEMA 
in the new reorganization, the Office of National Capital 
Region Coordination, whose mission is to oversee and coordinate 
Federal programs for the relationship to State, local, and 
regional authorities and the National Capital Region. Chris 
Geldhart, Director of the Office, will be speaking to you today 
in a later panel about this important office's role in the new 
FEMA and the NCR.
    With these new and experienced leaderships in place, FEMA 
will be ready to act. As part of our improved reform operation, 
we have pre-arranged contracts, an approved and improving 
logistics system, and other elements already in place to 
expedite this response. FEMA can surge its own team and assets 
into an area in anticipation of an approaching storm.
    This forward-leaning new FEMA is evidence in our response 
to the tornado that devastated Greensburg, KS, this past May. 
In the first 72 hours, FEMA coordinated the efforts of numerous 
Federal agencies. FEMA had an urban search and rescue team on 
the ground the same day Kansas asked for the support. Supplies 
were rolling in within hours. Mobile support vehicles moved in 
early. I am proud of the response by our team. Federal, State, 
and local partners all together responded to this tragedy.
    Once the storm is passed, FEMA is also better organized and 
better prepared to help in the recovery. FEMA's Disaster 
Assistance Directorate has expanded its capabilities to assist 
with mass care; sheltering; debris removal; victim 
registration, including enhanced protections against waste, 
fraud, and abuse; and coordination among Government and private 
sector entities all moving to provide assistance.
    One example of FEMA's response is the storms in the 
northeast this spring. FEMA had staff on the ground before the 
rain stopped, evaluating damage and registering victims. Mobile 
assistance centers were available in the immediate wake of the 
storm. The first individual financial aid was activated, 
delivered less than 24 hours after the President signed the 
first declaration. This fast, efficient, multi-State response 
shows the type of action you can expect from FEMA during this 
year's hurricane storm.
    In conclusion, we have made real progress with FEMA and are 
much better aligned and prepared for the 2007 hurricane season. 
By leaning further forward to coordinate the Federal response, 
which is more informed through assessments and communications 
with our partners, we can better serve all Americans.
    To wrap up, Mr. Chairman, today FEMA has created engaged 
partnerships with State and local governments. We facilitated 
and supplied an effective, unified command across all levels of 
government. We have engaged hurricane-prone States to gain a 
better understanding of their vulnerabilities. We have improved 
logistics, communication capabilities to improve response, and 
enhanced disaster assistance capabilities to recovery efforts.
    We are not done yet, Mr. Chair, but if our progress over 
the past year is any indication, I believe we are on the right 
track for fulfilling our vision of becoming the Nation's 
preeminent emergency management agency.
    I am proud of the men and women of this Agency. They have 
put their hearts and souls into rebuilding this Agency.
    Thank you for your continued support, and I thank you for 
the opportunity to appear in front of this panel.
    [The prepared statement of Mr. Paulison follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you, Mr. Paulison. We appreciate 
your testimony.
    Major General Scherling.

              STATEMENT OF GENERAL TERRY SCHERLING

    General Scherling. Good morning, Chairman Waxman, Ranking 
Member Davis, and distinguished members of the subcommittee. 
Thank you for the opportunity to appear before your committee 
to discuss the role of the National Guard in support to civil 
authorities during disasters.
    I am here on behalf of Lieutenant General Steven Blum, 
Chief of the National Guard Bureau, who is currently at 
Northern Command with a number of Adjutants General from the 
Homeland Security Committee, continuing our efforts to improve 
planning, communication, and coordination between the active 
component and the National Guard.
    Mr. Chairman, this is not the first time key leaders have 
gathered to address the Nation's domestic response 
capabilities. Earlier this year, representatives from FEMA, 
Northern Command, and the National Guard Bureau and Adjutants 
General from the hurricane-affected States met to address ways 
to better integrate our capabilities necessary for an effective 
response to domestic emergencies.
    Mr. Chairman, these ongoing deliberations are indicative of 
the Department of Defense's and FEMA's determination and 
commitment to ensure military support to domestic emergencies 
is timely, sufficient, and integrated in such a way as to 
maximize effectiveness. When lives and property are at stake, 
every second counts, and the National Guard, as first 
responders, will be ready to respond when a State requests 
assistance.
    I am grateful for the opportunity to appear before the 
committee today and welcome your questions.
    Thank you.
    [The prepared statement of General Scherling follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much.
    Mr. Jadacki.

                   STATEMENT OF MATT JADACKI

    Mr. Jadacki. Good morning, Chairman Waxman, Ranking Member 
Davis, members of the subcommittee. Thank you for the 
opportunity to be here today.
    I will focus my remarks on FEMA's plans to meet the next 
catastrophic incident. The five critical areas I will discuss 
are: coordination of disaster response efforts, catastrophic 
planning, logistics and acquisitions, housing, and evacuation.
    FEMA's efforts to support State emergency management and to 
prepare Federal response and recovery in national disasters are 
insufficient for an event of Hurricane Katrina's magnitude. 
Reports issued by Congress, the White House, Federal Office of 
the Inspector General, and the GAO, among others, identified 
issues, including questionable leadership decisions and 
capabilities, organizational failure, overwhelmed response and 
communications systems, and inadequate statutory authorities. 
As a result, Congress enacted a number of changes to enhance 
the Federal Government's response capabilities for emergency 
management. In total, six statutes enacted by the 109th 
Congress contain changes that apply to future Federal Emergency 
Management actions.
    While most of the new laws contain relatively few changes 
to Federal authorities related to disasters and emergencies, 
the Post-Katrina Emergency Reform Act of 2006 reorganizes FEMA, 
expands it, statutory authority and imposes new conditions and 
requirements on the operation of the Agency.
    In responding to a catastrophic event, it is important to 
keep in mind that response and recovery are not solely a FEMA 
responsibility; it is inherently the Nation's responsibility. 
The National Response Plan was established to marshal, all the 
Nation's resources and capabilities to address threats and 
challenges posed by disasters, both natural and manmade.
    A successful response to and recovery from a catastrophic 
event can be directly tied to the resources and capabilities of 
citizens, local and State governments, the Federal Government, 
non-governmental organizations, and the private sector.
    FEMA is the face of our Nation's response to large-scale 
disasters and is charged with coordinated deployment of our 
Nation's resources and capabilities, but success can only be 
realized when all stakeholders are fully prepared and willing 
to contribute.
    FEMA is largely dependent on other Federal, State, and 
local agencies and outside resources in executing many 
activities that take place. To be successful, FEMA needs to 
plan and conduct exercises with all its partners.
    Budget constraints remain a concern for many entities. Some 
that should participate may not have the resources to do so. 
Congress recently appropriated $20 million for catastrophic 
planning. FEMA needs to continue to develop plans and exercises 
for high-risk scenarios and include all its emergency 
management partners. Strong logistical and acquisition 
management capacity is necessary.
    FEMA is responsible for coordinating delivery of 
commodities, equipment, personnel, and other resources to 
support emergency or disaster response efforts to affected 
States; therefore, FEMA's ability to track and acquire 
resources is key to fulfilling its mission. Recent events, 
including the Kansas tornado, indicate improvements in FEMA's 
response and logistics capability; however, whether these 
improvements will work for a catastrophic event are largely 
untested.
    FEMA also has not been well prepared to deal with the kind 
of acquisitions support needed for a catastrophic disaster. 
Their overall response efforts have suffered from inadequate 
acquisition planning and preparation; lack of clearly 
communicated acquisition responsibilities among FEMA, other 
Federal agencies, and local State governments; and insufficient 
numbers of acquisition personnel to manage and oversee the 
contracts.
    Pursuant to the Post-Katrina Act, FEMA has undergone 
significant reorganization; however, with the hurricane season 
upon us, a number of acquisition readiness concerns remain. 
FEMA has yet to finalize a process to ensure that the Federal 
pre-negotiated contracts for goods and services are coordinated 
with Federal, State, and local governments. FEMA acquisition 
process did not fully participate in strategizing and 
identification of goods and service for which pre-negotiated 
contracting may be needed in a catastrophic event, and FEMA and 
other Federal agencies may not have enough trained and 
experienced acquisitions personnel in place to manage and 
oversee the vast number of acquisitions that follow major 
catastrophic events.
    An effective and efficient disaster housing strategy is 
required for successful response. Some components of FEMA's 
housing strategy were not well-planned or coordinated in 
response to Katrina. Basically, after Katrina, FEMA used a 
traditional housing strategy for a non-traditional event. As a 
result, the housing programs and policies were not effective, 
and housing problems persist in the Gulf area. A comprehensive 
catastrophic housing plan and new and innovative housing 
approaches are needed for such events.
    The fiscal year 2007 Homeland Security Appropriation Act 
mandated FEMA to develop a national disaster housing strategy. 
FEMA has coordinated with other Federal agencies and the 
National Council on Disability to develop a strategy to address 
housing needs for future disasters. These are important first 
steps to improve disaster housing. To be successful, FEMA needs 
to look to other Federal agencies and State partners to take a 
bigger role in disaster housing. While these efforts should 
improve housing coordination, they remain untested.
    Hand in hand with housing is well-executed evacuation 
strategy. Evacuation plans are complex and must consider a 
number of scenarios. Recent reports have indicated that, 
despite warnings and mandatory evacuation orders, a significant 
number of individuals would not leave their homes. Others may 
not have the ability to evacuate because of health reasons or 
lack of transportation. Local and State officials are in the 
best position to develop evacuation plans based on local 
demographics; however, it is critical that the Federal 
Government coordinate with State and locals, because in a 
catastrophic event it is likely they will play a major role in 
evacuation.
    Let me end my statement by reiterating our goal, which is 
to take lessons learned from response to Hurricane Katrina and 
assist DHS/FEMA to form the foundation for necessary 
improvements to effectively respond to the next catastrophic 
events.
    That concludes my opening remarks. I am happy to answer any 
questions.
    [The prepared statement of Mr. Jadacki follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Jadacki.
    I am going to start off the questions.
    Administrator Paulison, in the written testimony you 
submitted to the committee, you discussed everything that FEMA 
has done since Hurricane Katrina to ensure that it is ready for 
the next catastrophic disaster. In fact, I think the first 20 
pages of your testimony were dedicated to explaining everything 
FEMA has done, and I appreciate that FEMA has made changes. 
However, toward the end of your submitted testimony you state, 
``Of course, we are not done yet. There is still much work to 
do.''
    I am happy to see that you acknowledge this in your 
statement, because it is important that FEMA acknowledge that 
work still needs to be done. Your statement didn't elaborate on 
what FEMA still needs to do, and I would like to hear you 
explain which areas FEMA still needs improvement and why.
    Mr. Paulison. Yes, sir. First of all, that won't ever be 
done. There is always room for improvement. But specifically, 
we have done some gap analysis for hurricane States from Texas 
all the way to Maine to give us a very clear assessment of what 
the needs are in those States and working with them very 
closely to fill those gaps. We have not done the rest of the 
country, but we want to make that gap analysis tool that we 
have developed with the State of New York and the State 
Emergency Management available to the rest of the States to 
deal with that.
    The logistics system has been improved significantly and is 
improving. We still have a lot more work to do to make sure 
that I have an end to end view of where those commodities are 
from the time it is ordered until it is absolutely delivered to 
where it needs to be. We have done a great job of being able to 
track that, and we can track our supplies pretty much across 
the country.
    But I want to move more to what we call a 3PL--third-party 
logistics--type system. We have hired some exceptional people 
from the Defense Logistics Agency to run logistics, and we are 
not quite where I want to be yet. I am very comfortable that we 
can provide the supplies we need, but I still want to bring it 
into the 21st century to make sure that we have what we 
consider one of the best logistics systems in this country. And 
we are looking at other private partners and how the Defense 
Logistics Agency does it, how does Wal-Mart, Home Depot, 
Lowe's, all those people, move supplies around. We are bringing 
those in to help us do that.
    Those are just two examples of where we are not done yet. 
We have done a lot, but we have more work to do.
    Chairman Waxman. One concern I have is whether FEMA is 
taking on too much responsibility. After Hurricane Katrina, one 
of the recommendations was that other agencies become more 
involved in their areas of expertise. In the draft national 
framework, FEMA has been named as the primary Federal agency 
for housing and emergency services; however, the Lessons 
Learned Report issued by the White House recommended that other 
Federal agencies and organizations take the lead in these 
critical functions.
    For example, recommendation number 69 stated, ``Designate 
HUD as the lead Federal agency for the provision of temporary 
housing.'' However, FEMA and not HUD will take the lead for 
housing, according to the draft response framework.
    I am not sure that the White House was correct when it made 
the recommendations, but I would like to understand FEMA's view 
of the matter. Why has FEMA decided not to follow the 
recommendations made by the White House report with respect to 
temporary housing?
    Mr. Paulison. Actually, we are going to be leaning very 
heavily on HUD for this long-term housing. FEMA should take the 
lead in the short-term emergency housing, but we have been 
working with an MOU with HUD right now to take over all of 
these people that are in rental assistance places like 
apartments. That does belong to HUD, and we are looking to 
transfer all of that this fall to HUD, who are the experts in 
this type of housing. So it takes both of us together, working 
with HHS and other agencies to make sure that we can spread the 
workload, the expertise around the Federal Government, as 
opposed to all of it falling in FEMA's lap. Put it where the 
expertise is, and right now that long-term housing place, 
nobody does it better than HUD, so we are working with them to 
do that.
    Chairman Waxman. In the national draft framework, FEMA was 
also designated as the primary Federal agency for human 
services; however, recommendation No. 63 in the White House 
report states, ``Assign the Department of Health and Human 
Services the responsibility for coordinating the provisions of 
human services during disasters.''
    The American public doesn't care what agency provides the 
response to a disaster, they just want the response to be done 
correctly, and that is our goal, of course, as well. But I am 
concerned that this tug of war about who will perform what 
functions will impede an effective response and undermine 
effectiveness. What is your response to that?
    Mr. Paulison. The response framework is not finished yet. 
We are adjudicating some final comments this week, and 
hopefully we will be able to get the draft to you within a week 
or so, hopefully within a week, to make sure you have that.
    We are not going to fight over responsibilities. We are 
going to make sure that we know who is responsible for what. 
Those are some clear lessons learned in Katrina, so I can 
assure you that we will sort this out, putting those 
responsibilities exactly where they belong, working as a 
partnership.
    We are one Federal Government and we are going to start 
acting like that.
    Chairman Waxman. Thank you very much.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    I want to start my question with Administrator Paulison and 
the issues related to command and control.
    I know you are familiar with the Select Committee report. 
In that report the Select Committee found command and control 
was impaired at all levels, which delayed relief, and noted 
contributing factors including lack of communications, 
situational awareness, personnel training, and funding.
    In a July 16, 2007, letter from Secretary Chertoff to 
Louisiana's Governor, describing prescripted assignments of the 
principal Federal officials--the PFO, the deputy PFO, and the 
Federal coordinating official, the FCO--the letter stated that 
the PFO is the DHS' Secretary's representative in the field 
during a disaster and helps ensure smooth coordination among 
other senior officials.
    What are the roles of the PFO and the FCO, and how you 
contribute to seamless command and control if one reports to 
you and the other to Secretary Chertoff?
    Mr. Paulison. First of all, very seldom will there be a PFO 
named unless it is some type of catastrophic event or something 
that is not necessarily a Stafford Act event. For instance, if 
we had several small terrorist attacks across the country that 
did not raise to the level of disaster declaration in any 
particular State, you wouldn't have an FCO. The PFO would be 
that primary Federal official out there.
    The PFO is the Secretary's representative out there, and 
the PFO will help coordinate all of those Federal groups 
together, but the FCO handles the operational piece. The PFO 
does not have line authority. The FCO does not report to that 
person. So I don't see a conflict here at all.
    Mr. Davis of Virginia. What would Brown have been? Would he 
have been the PFO or the FCO? How would you have considered 
Michael Brown in a case like that?
    Mr. Paulison. One of the things that happened during 
Katrina, and maybe rightfully so, was the PFO and the FCO were 
pretty much the same person. That is not going to happen again. 
They are two different jobs, two different entities. But, 
regardless, we are all going to work through the joint field 
office. What we won't have is the PFO giving information. The 
Secretary does not go through the joint field office and does 
not come to me also, so we are working it out where the PFO and 
the FCO have totally different jobs, but will coordinate 
together and work together very closely.
    Mr. Davis of Virginia. Have State and local preparedness 
officials bought into this concept of the PFO and the CFO? Can 
you ensure the committee these roles will contribute to better 
communications?
    Mr. Paulison. Yes, sir. One of the major failures inside 
during Katrina was the breakdown in communication between the 
local and the State government, and between the State 
government and the Federal Government, and even inside the 
Federal Government, itself. Our unified command system that we 
set up and have tested and have actually had exercises all the 
way up including the President's Cabinet will stop that from 
happening again.
    The joint field office will be the focal point of that 
unified command system, so we are all sharing information. We 
all know what each other knows, and there are no stovepipes. 
That was one of the biggest failures during Katrina.
    Mr. Davis of Virginia. Let me go back to the July 16th 
letter from Secretary Chertoff to Governor Blanco. It described 
the prescripted assignments of the PFO, the Deputy PFO, the 
CFO. The lieutenant states that ``States should contact DHS' 
Risk Management Analysis Unit within the National Programs and 
Protection Directorate,'' the NPPD. Why is this being run by 
the NPPD and not by FEMA?
    Mr. Paulison. That is just for the administrative part of 
the PFO. In fact, in the 2008 budget that will transfer to the 
Director of Operations, Admiral Roof, to oversee that part of 
it. But as far as managing the Federal assets on the ground, 
deciding which supplies go where, that will be handled by FEMA 
through the FCO.
    Mr. Davis of Virginia. Why is the NPPD even involved with 
this in the first place?
    Mr. Paulison. I think that seemed like a good place to put 
it at the time. Again, transferring that over to the Director 
of Operations, and that is who will manage the administrative 
part of the PFO. But the PFO reports directly to the Secretary, 
does not report through any body else.
    Mr. Davis of Virginia. The Post-Katrina Emergency Reform 
Act of 2006 and the Stafford Act doesn't appear to designate 
NPPD as part of the authorities involved in emergency 
designation and leadership, so how do they get in it?
    Mr. Paulison. Well, they needed someone to oversee the 
training, the selection of the PFOs. The PFOs and the NCOs are 
selected. FEMA is part of that system selecting the FCOs. We do 
all the FCOs and also sit on the panel for the PFOs. We also 
participate in the training of the PFOs. They just needed 
somebody in the Secretary's office to coordinate that. That is 
why it was the NPPD. That, again, will be the Director of 
Operations will coordinate that for the Secretary.
    Mr. Davis of Virginia. Our theory, of course, is for FEMA, 
that you can go and conscript the resources of Government from 
anywhere in Government. That is where it is. A lot of us 
thought it ought to be right there in the White House at a time 
of emergency. Instead, it is sitting under DHS, and now we see 
NPPD and other groups getting into it. Frankly, this makes me a 
little nervous.
    I just want to ask one last question. Last week, as you 
know, we had a hearing on the problems of formaldehyde in the 
FEMA trailers. FEMA was caught off guard in its mass housing 
strategy. In his written testimony, Al Ashwood, Oklahoma State 
Director of Emergency Management, who is on our second panel, 
he is highly critical of your post-Katrina housing strategy.
    Just to remind everybody, the Select Committee report 
states, ``FEMA failed to take advantage of the Department of 
Housing and Urban Development's expertise and large-scale 
housing challenges.
    So my question is: how does FEMA plan the coordination of 
short, medium, and long-term housing? What is different now in 
the post-Katrina environment, and is Mr. Ashwood overreacting, 
or is housing still a major concern?
    Mr. Paulison. Mr. Ashwood is not over-reacting. We did not 
take advantage of HUD's capabilities in the aftermath of 
Katrina. One of the lessons learned. We know we are going to do 
that now. We are working very closely with HUD. If the MOU is 
not signed now, it will be signed very shortly to make sure 
that we move that long-term housing piece over to HUD and just 
use FEMA for the emergency housing to get people immediate 
help, put them in immediate safe housing, and then transfer it 
over to HUD. That will take place this fall.
    Mr. Kucinich [presiding]. Major General, I would just like 
to ask some questions about the readiness of the National 
Guard. Do you have enough Guardsmen and Guardswomen to be able 
to respond to a national emergency if another hurricane was to, 
let's say, hit the Gulf Coast and cause tremendous damage and 
dislocation to people? And could you tell this committee the 
degree of preparation the Guard has made with respect to the 
number of personnel, the kinds of equipment, and whether you 
are truly ready, aside from any paper plans?
    General Scherling. Yes, sir. To focus first on personnel, I 
will tell you that the personnel availability within the States 
is very good at this time. While we have approximately 50,00 
personnel deployed overseas, we have approximately 10,000 
personnel day to day here in the United States involved in 
domestic operations. That leaves us approximately 390,000 
personnel to be available in the event of another disaster here 
in the United States.
    Mr. Kucinich. Thank you, Major General. Now I would like 
you to square your response that you just gave this committee 
with the response that the Senate committee heard on U.S. 
disaster response earlier this month from Army Lieutenant 
General Steven Blum, head of the U.S. National Guard, who 
stated that in the case of a major disaster without advanced 
notice, that the National Guard is unprepared to respond? He 
said, ``In a no-notice event we are at risk, and we are at 
significant risk.'' I would like you to square the statement 
that you just gave to this committee with the statement of 
Lieutenant General Blum. Thank you.
    General Scherling. Yes, sir. I believe that General Blum 
was referring in particular to equipment, sir. And the reason I 
say that is, because of the first of the year, the equipage 
rate of the National Guard was approximately 40 percent, and it 
has been our policy within the National Guard that if a State 
has an equipment requirement and the National Guard has 
equipment available in our inventory, we will make sure that 
they have it. In order to prepare for this hurricane season, 
what we have done is focused on the hurricane States, and in 
doing so we have held several hurricane conferences which FEMA 
has participated in and conducted our own gap analysis on the 
equipment available to each and every State.
    What we have done subsequent to that is to also determine 
where we would match shortages with availability from other 
States. So, for example, the State of Louisiana may have 
particular shortages and we have actually used the emergency 
management assistance compacts to determine which States would 
be most available to provide equipment to match their 
shortages.
    Mr. Kucinich. Thank you. And let me ask you this. Are you 
saying that you have enough manpower?
    General Scherling. Yes, sir.
    Mr. Kucinich. And are you saying you have enough equipment?
    General Scherling. Sir, we have enough manpower. The 
National Guard is short of our dual-use equipment.
    Mr. Kucinich. So you are saying that Lieutenant General 
Blum was speaking only about equipment and wasn't speaking 
about the issue of whether or not you have enough people?
    General Scherling. Yes, sir. I believe that to be the case.
    Mr. Kucinich. But if you have enough people and you don't 
have enough equipment, what does that say to the overall 
preparedness of the National Guard?
    General Scherling. Sir, while we may not have enough 
equipment in particular States, what we have done is prepare 
for the upcoming season by making available other equipment 
from other States to cover those shortages, and that would be 
General Blum's response, I believe, as well.
    Mr. Kucinich. So your response is that you only have 
shortages of equipment in certain States?
    General Scherling. Yes.
    Now, Mr. Paulison, are you in close contact with the 
National Guard relative to their level of preparedness?
    Mr. Paulison. Yes, sir. In fact, we have the closest 
relationship with the Department of Defense, the National Guard 
than we have ever had. We meet with them on a regular basis. We 
have weekly videoconferences that they participate in. We have 
developed an extremely good relationship and are working hand 
in hand together. We are doing exercises together, making sure 
we know where the shortfalls are in particular States. Like I 
said, we did the gap analysis already.
    Mr. Kucinich. Shortfalls? Have they given you a budget for 
equipment?
    Mr. Paulison. No, sir, they have not given us a budget for 
equipment.
    Mr. Kucinich. Do you know if they have needs for equipment 
that have not been met?
    Mr. Paulison. The system that we use is the emergency 
management assistance compact, so if they have a disaster in a 
particular State and there is something lacking, we can move 
that very quickly from one State to another.
    Mr. Kucinich. Now, I want to go back to what Army 
Lieutenant General Blum said to a Senate committee. He said 
that in a no-notice event we are at risk, we are at significant 
risk. You are just telling this committee that you seem to have 
no problems about whether they have the equipment they need, 
but you haven't really submitted a budget. You are saying that 
you have some equipment needs but you can move them around from 
State to State. Since no-notice events really limit mobility, 
but by common sense I am just, again, asking you--and we are 
going to go back to another round on this--about what equipment 
needs are out there that haven't been met. Has there been a 
budget? Is there communication on real, practical matters?
    I am going to go to the next questioner. This is the 
ranking member of the Domestic Policy Subcommittee, a person 
who I serve with, who serves with distinction, and who I am 
glad to work with today, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I think this epitomizes 
a bipartisan hearing, and I am going to followup right where 
you left off.
    General, we all know what hangar queens are, especially 
since I am an Army aviator, so we only know about helicopters 
we can't get out, but when we look at your shortfalls in 
equipment, as the chairman was asking, what is the net number 
that you can deploy? If you have 360,000 people potentially--
and we all know there will be sick, lame, and lazy that will 
fall out of that. We all know there are people whose skill sets 
would be inappropriate, or for some other reason be 
inappropriate to deploy, so you get a lesser number.
    Let's say, for argument's sake, that is 300,000. Now we 
talk about the equipment you have that is appropriate for dual 
use. How many people with full equipment can you put on a 
target, let's just say in each of the four regions in a 24 hour 
basis? So take the southeast, the southwest, the northwest, the 
northeast, and let's just assume for a moment that a hurricane 
hits and the Fort Dix guys do something on steroids, what can 
you put in each of those zones?
    General Scherling. As I mentioned earlier, we have 
approximately 390,000 people that would be available. Now, 
being a planner, one might put 100,000 in each of the four 
zones. What I would tell you is that the availability of 
equipment is much like living in a small town like I grew up in 
North Dakota, where you may have a fire in your house, and say 
it is a two-truck fire, where you would typically need two fire 
trucks to put this fire out, and you only have one fire truck 
available, but you have to get the fire truck from the 
neighboring town to get the fire out.
    Mr. Issa. General, I understand that, and I think we all 
understand that, exactly like forest fires--and I am from the 
west, so we understand that there has never been a forest fire 
fought in California that wasn't fought with out-of-Staters, 
and there has never been anything else in the west that wasn't 
fought with California firefighters. However, my question 
really is: how many people with full equipment can you put to 
the next Katrina? And let's assume that 24 hours into that 
disaster, whatever amount you give me, you have an equal 
disaster in one of the other four quadrants. What is your 
reserve? When do you run out of people in each of those four 
regions?
    The reason we are asking is that the likelihood of another 
Katrina may be low, but the likelihood of two more events is 
what we have been asking FEMA to be ready for for a long time.
    So have a Katrina, then have the bad guys take advantage of 
that situation and do something catastrophic. Let's just divide 
it in four. How many people can you have in four regions with 
equipment?
    General Scherling. Congressman, the reason that I would 
separate equipment and personnel is really that when we respond 
to disasters we do so with 10 essential different areas of 
equipment, to include transportation, logistics, aviation, and 
it requires different numbers of people to sustain each 
different type of equipment, so----
    Mr. Issa. OK. Let me change to another subject then. I 
think I will go to the IG, because I am a little frustrated. If 
I need 100,000 temporary dwellings in the southeast today 
without formaldehyde, do you believe that these agencies are 
prepared to deliver those today? And we are not talking about 
the ones that are already there. I think that is clear.
    Mr. Jadacki. I don't think we can buy 100,000 temporary 
dwellings, whether they are travel trailers or mobile homes, 
without formaldehyde. I don't think there is any guarantee to 
do that. I think, as some Members alluded to before, the fact 
that there are other agencies out there that probably have 
better capability to do that.
    There is Housing and Urban Development. Housing is in the 
name. They should be doing housing. And I think, under the 
National Response Plan, and when there is a catastrophic event, 
FEMA needs to look at these other Federal agencies where the 
expertise is. There are Stafford Act authorities that can be 
used early on to provide temporary housing until the situation 
is stabilized. I think, mid-to long-term, I think they do need 
to look for the experts in the Federal Government to do that, 
including going out and buying 100,000 housing units.
    Mr. Issa. I only have time for two quick followups. One 
would be for the IG, and that is basically: what effect do you 
believe the global war on terror, which is translated into 
preparedness by FEMA, has affected its ability to deal with 
other routine--I hate to say hurricanes are routine, but they 
do happen more often than terrorist attacks. How much has been 
diverted because of that portion of preparedness?
    And, Mr. Paulison, so that I don't leave you out, in 
Hurricane Katrina we had a de minimis amount of need for 
hospitals, by comparison to other forms of disaster. It wasn't 
there it was none, but on a scale most ever had to do with 
people who didn't have power, didn't have food, or whose 
medical emergencies were not caused directly by the hurricane. 
What are you doing to change that to be prepared in the next 
disaster, hospitalized?
    In either order, quickly.
    Mr. Paulison. We have particularly worked very closely with 
our gap analysis in looking at hospitals, which hospitals can 
shelter in place, what do they need to do that, and just 
particularly in Louisiana we have put six huge generators down 
there, installed them, fueled them for those hospitals that can 
shelter in place and are not part of a flood zone.
    Some cannot shelter in place, and those we make sure that, 
working with the State, we have very good, rock solid 
evacuation plans. Where are they going to go? How are they 
going to get there? Who is going to take them? Who is 
responsible for that? And not only the hospitals, but the 
nursing homes, where we had some of the issues down there.
    Those are the types of things we have put in place for 
hospitals.
    Am I answering your question?
    Mr. Issa. Yes. Thank you.
    Just on the IG quickly, because my time is expiring.
    Mr. Jadacki. Yes. After 2003 when Homeland Security formed, 
a lot of the emphasis was on terrorist attacks and those types 
things. I think the focus on natural disasters really was 
minimal.
    After 2004, the hurricanes hit Florida. That was a little 
taste of the capability of the Federal Government, but I think 
that Katrina was the eye-opener. I think it brought to the 
attention to the American public, to everybody, that we can't 
ignore.
    The consequences are the same, whether it is a natural 
disaster or it is a man-made disaster. There is still that 
response and recovery capability that is needed by the Federal 
Government and the State and local government.
    Mr. Kucinich. I want to thank the ranking member on our 
subcommittee and just to comment to you that this line of 
questioning I hope other Members are going to pick up between 
the disparity between having enough people and equipment, 
because if you are a truck driver and you don't have a truck, 
hello. So I want to thank the gentleman for exploring that.
    I am asking for unanimous consent for the committee to 
permit the inclusion in this hearing of our good friend from 
Louisiana, the distinguished gentleman, Mr. Jindal, to 
participate in this hearing as a member of the committee and to 
be able to ask questions. Without objection, so ordered.
    The Chair at this point will recognize Eleanor Holmes 
Norton, the distinguished representative of the District of 
Columbia.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I have a question about DHS dominance and the attending 
dominance of terrorism over natural disasters. I do want to 
say, for Mr. Paulison and Mr. Jadacki, perhaps, I do want to 
say to Mr. Paulison you are getting a great deal of oversight, 
including by my own subcommittee, which has the primary 
jurisdiction over FEMA and will be doing a comprehensive 
hearing in New Orleans on the Katrina anniversary in late 
August. You have had hearings here in this committee on 
formaldehyde most recently. We have had hearings on ice and 
food. There has been a tendency on the part of Katrina to 
respond to under-preparation and Katrina to over-preparation. 
It suggests the absence, even given the difficulties of 
calibrating, it really does suggest the absence of skilled 
personnel in these matters.
    My question, though, goes in part to my membership on the 
Department of Homeland Security and my membership on this 
committee and, of course, our subcommittee. We passed the Post-
Katrina Emergency Reform Act to deal with DHS dominance, to try 
to give FEMA more independence, and yet I really don't see 
evidence of that.
    Let me give you an example. First of all, apparently to 
declare a national emergency one has to still go through 
bureaucracies all the way to OMB, suggesting DHS is still in 
charge, no matter whether the expertise would naturally flow to 
FEMA. But let's look at what is happening with emergency 
exercises, as a case in point. We know we are dealing with all 
hazards, and, indeed, it is a failure if you have to attune to 
disaster. You should be able to handle disasters across the 
board.
    In the national emergency exercises for the hypothetical 
emergency scenarios, isn't it interesting that, although you 
can expect that there will be floods and hurricanes and 
earthquakes and snow storms, although that is clearly the 
expectation, in your hypothetical emergency scenarios, where 
you have 15 scenarios in total, 12 of the scenarios are 
terrorist attacks.
    I can understand post-9/11 everybody would want to, in 
fact, make sure that we could do something in the event of 
terrorist attack, but that kind of dominance of a terrorism 
approach makes you wonder whether you understand what American 
people have to deal with every single year. Why are there only 
three scenarios that deal with natural disaster--an earthquake 
in California, an earthquake on the New Madrid Fault Line, and 
a pandemic flu outbreak?
    I would like to know why there aren't more real-time 
disaster exercises. For example, the District of Columbia on 
July 4th does a very simple real-time, putting all the red 
lights on just to make sure everybody can stop and go. They go 
on for a longer period of time than usual. You know, that 
really comes out of the District of Columbia.
    I wonder, for example, whether you have had anything to do 
with real-time exercises any place else. Suppose you had to 
evacuate San Francisco or the District of Columbia. Could we do 
that? Would people know to stay in place or evacuate? How would 
FEMA respond? And why are there so many scenarios for terrorist 
disasters and so few for natural disasters?
    Mr. Paulison. First of all, that is an excellent question. 
We are making sure that we don't go one way or the other. I 
know FEMA gets accused sometimes of focusing strictly on 
natural disasters and not the terrorist events. We have just 
taken over, just this last spring, all of the exercises, and I 
can tell you that I have done tabletop exercises for hurricane 
seasons. We did preparedness workshops and exercises in region 
two at the Caribbean office, region two, region six, the 
Pacific area office, through March to June. I did hurricane 
preparedness workshops in several different areas.
    Ms. Norton. I am really talking about the Presidential 
Security Council. Are you doing those? Are you now doing the 
fifteen scenarios and not the Presidential Security Council, 
which had twelve terrorist and three natural?
    Mr. Paulison. Yes. The 15 scenarios are out there for 
people to train to, to do those types of things. I feel like we 
do enough natural disaster exercises across this country. All 
of our catastrophic planning----
    Ms. Norton. What about real-time exercises?
    Mr. Kucinich. The gentlelady's time has expired.
    Ms. Norton. Could he just answer that about real-time 
exercises, like the one that was in the District of Columbia?
    Mr. Paulison. We do that on a regular basis, particularly 
with hurricanes and things like that, and earthquakes. We do 
the evacuation piece.
    Ms. Norton. Where have you done real-time exercises?
    Mr. Paulison. It has to be table top.
    Ms. Norton. Where have you done real-time exercises?
    Mr. Paulison. If you are talking about real-time exercises, 
every State has a hurricane exercise, and we always participate 
in those with the States, because that is where the impact is. 
Those are either real time or tabletop. For a hurricane it is 
tough to do a real-time type of exercise for that type of 
thing, because you can't evacuate people. You don't want to 
ship supplies, so you do a tabletop to make sure you have 
things in place. That seems to work best for us.
    Mr. Kucinich. The gentlelady's time has expired.
    I am going to recognize Mr. Shays from Connecticut.
    Mr. Shays. I had the opportunity to serve on the Select 
Committee under the guidance of Chairman Davis. It was a hard-
hitting report. I think that my reaction to Katrina was that we 
could deal with an administration that was being arrogant and 
competent, but it was tough to deal with an administration that 
was being arrogant and incompetent, and Katrina looked so 
incompetent to all of us. I realize it was a 500-year storm, so 
nobody is going to be able to deal with it in the way we would 
want, but I would have at least liked someone of authority to 
have gone into the Superdome and said, I am not leaving this 
place until all our fellow Americans are out safe. It was 
almost like everybody avoided going in there. It was a very 
shameful feeling for me.
    By the way, Mr. Paulison, thank you for your work and your 
work as the Acting Director and now as the Director, but what I 
am hearing is that we are looking at this in a strategic way, 
which is good, but I would like you to kind of outline some of 
the tactical and operational areas that you are looking to 
improve. Not all of them, because it would take you a long 
time, but just give me an outline.
    Mr. Paulison. First of all, what happened at Katrina should 
not happen in this country, and I am going to do everything in 
my power to make sure it doesn't happen again. I am going to 
make sure that this organization is capable of responding.
    We have taken all of those lessons learned from the reports 
that came out of the House, out of the Senate, out of the White 
House, the IG's report, GAO--I mean, there is a ton of them. 
There were similar themes to every one of them: tremendous 
breakdown in communications; not having visibility on the 
ground in what is really happening and getting all those 
multiple stories back; not having a good victim registration in 
place; having people scattered across this country and not 
knowing where they are or who they were or what their needs 
were; not being able to provide the right kind of logistics, 
having the right things in the right places at the right time. 
So we are taking those and focusing on those major issues that 
were a breakdown in the system.
    Right now we can register over 200,000 people a day that we 
could not do before. We have put five mobile registration vans 
in place where we can go out to where people are, because they 
could not come to our registration centers, and they are 
equipped with satellite-based laptop computers and satellite-
based cell phones. We saw this work very well in Greensburg, 
KS, where people actually sat down at a table and sat on a 
computer and registered themselves or pick up the phone and 
call that 1-800-621-FEMA number to get registered, putting a 
logistics system in place that brings it into the 21st century.
    I know Eleanor Norton Holmes has helped us with that and 
recognized very clearly that we cannot continue to stockpile 
millions and millions of dollars worth of ice and just let it 
go away; we have to bring in a third-party logistics systems, 
which is what we have done as----
    Mr. Shays. Let me use that as a transition. One of the 
things that I found most astonishing was how bureaucratic FEMA 
was and how we had let out contracts. I have in Connecticut 
some of the largest producers of bottled water. They were 
willing to give it below cost, and in some cases free. They had 
to go through some individual who didn't have an office in 
Georgia, I think it was, who had a contract, who basically was 
kind of trying to direct this out of what seemed like his 
kitchen. That was an absolute absurdity. My folks came to me 
and said, Forget it. We are not going to go through this 
individual.
    I hope we are looking at how we give out contracts and have 
the capability, if they are not instantly able to perform or if 
there is an overwhelming effort, to be able to nullify those 
contracts.
    Mr. Paulison. There is no question that a tremendous amount 
of bureaucracy built up over the 30 years that this 
organization has been in existence, and we are trying to very 
quickly get rid of some of that to move much faster and be much 
more nimble. It has been tough, I have to tell you, be honest 
with you. It has been difficult at times to do some of that. 
The Stafford Act needs to be looked at again to make sure it 
gives us better tools to do what we need to do.
    But what you are saying should not happen.
    Mr. Shays. Right.
    Mr. Paulison. We should be able to use the supplies where 
they are.
    Mr. Shays. Right. And instead of bringing them all the way 
from Connecticut, if they are already down close to the area. 
But I particularly have concerns about these contracts which 
seem to me like all they do is skim from the top.
    Let me just make this final point to you. When this 
committee helped create the Department of Homeland Security, we 
wanted the Department of Homeland Security to be added value to 
FEMA. I have told this to the Secretary. I was dumbfounded that 
he basically stood back and said, I want FEMA to be FEMA. We 
wanted FEMA to be FEMA plus have a Department of Homeland 
Security adding value, to be able to call in all the other 
resources that the Department has.
    Mr. Kucinich. The gentleman's time has expired.
    Mr. Shays. I would just like to know, Do you feel there is 
a better working relationship with the Secretary, etc?
    Mr. Paulison. Yes, sir. I have a great relationship with 
the Secretary and the Deputy Secretary. Being inside of 
Homeland Security has given me access to assets that I may not 
have. I meet every week with the operational components of 
Homeland Security. That gives me access to people on a first-
name basis that I can just pick up the phone and ask for 
assistance.
    I feel like I get a tremendous benefit out of what is 
inside Homeland Security.
    Mr. Shays. Terrific.
    Mr. Kucinich. I want to thank the gentleman for the 
practical line of questioning that is being asked here. It is 
really essential.
    The Chair recognizes Representative Clay from Missouri. Mr. 
Clay.
    Mr. Clay. Thank you, Mr. Chairman. Thank you for conducting 
this hearing.
    You know, FEMA failed Americans during Hurricane Katrina, 
and they continue to fail those who were displaced by the 
storm. Last week's hearing did not reassure me that FEMA is 
anything short of a dysfunctional agency that epitomizes 
mismanagement and waste.
    In addition to potentially putting the health of displaced 
hurricane victims at risk by exposing them to formaldehyde, 
reports of disaster ice being stored for 2 years at a cost of 
$12.5 million to taxpayers was irresponsible.
    Mr. Paulison, is it true that FEMA contracts require 
disposal of the ice 3 months after its purchase date?
    Mr. Paulison. We are disposing of all that ice we purchased 
in 2005 and 2006 at a cost of $3.5 million to get rid of the 
ice. We are no longer going to store ice. We are using a third-
party system with the Corps of Engineers. They can deliver 3.5 
million pounds of ice within 24 hours, and then whatever else 
we need within 72 hours.
    This is a new system that we are going to. If we had not 
stored ice and food and had the type of hurricane season that 
was predicted in 2006, we would have not had the supplies we 
needed to do the job we did, like we learned at Katrina.
    Mr. Clay. Wait a minute. Who advised FEMA to go against its 
own policy and store this ice for 2 years?
    Mr. Paulison. The ice was still good. We had it tested on a 
regular basis. We kept it for as long as we could. We 
recognized that we could not keep it any longer, and we did not 
want to use it, so we are disposing of the ice. It is an 
expendable commodity, like anything else that has a shelf life, 
so we are getting rid of it.
    Again, we learned from those lessons. Since we cannot 
depend on predictions for hurricane seasons--we were supposed 
to have a heavy hurricane season last year and it did not 
happen. So instead of storing those massive quantities of food 
and ice, we are looking at a just-in-time delivery system, like 
the rest of the business community uses. I want to bring FEMA 
into the 21st century logistics, and that is why we are 
bringing top-notch logistics people in who know how to operate 
in this type of a system.
    Mr. Clay. OK. I have a limited amount of time, Mr. 
Paulison. So apparently cost is no object here? I mean, that is 
what it seems like, and it seems like in your response you 
indicated that was the policy then and you kept storing the ice 
for almost 2 years. So apparently cost is no object when it is 
the taxpayers' dollars.
    Mr. Paulison. No, sir, that is not accurate. I am sorry, I 
can't let that go. We stored what we thought was enough 
supplies to get us through that 2006 hurricane season. We 
didn't have any hurricanes, so we had excess supplies. Learning 
from that, we are no longer going to do that.
    Mr. Clay. OK. Let's go to the next one then, Mr. Paulison. 
GAO estimated that FEMA, in responding to Hurricane Katrina, 
made between $600 million and $1.4 billion in improper and 
possibly fraudulent payments. How has FEMA addressed concerns 
over these payments that were made in the aftermath of 
Hurricane Katrina?
    Mr. Paulison. A couple of things. I don't know about the 
dollar amount, but GAO is correct: FEMA did a lot of payments 
that they should not have done. They did not have a system in 
place to accurately identify a person were who they said they 
were and they lived where they said they lived. So we have put 
a system in place where we can now do that. We have an identity 
verification company, a system in place so when you come for 
payment we can tell you are who you said you are and you lived 
where you said you lived.
    The second piece of that is some of the contracts that FEMA 
did during Katrina were done on the fly, and we don't want to 
do that. We have those contracts in place ahead of time. We are 
negotiating from a position of strength, as opposed to 
negotiating from a position of weakness when you are in the 
middle of a storm and you need that type of assistance.
    Mr. Clay. And at that time, again, taxpayer money was no 
object here. Let me----
    Mr. Paulison. No, sir. That is why I was brought in, to fix 
those issues, and that is what I am doing.
    Mr. Clay. And I hope you do.
    Mr. Paulison. Thank you, sir.
    Mr. Clay. Let me go on to Mr. Jadacki.
    Mr. Jadacki, an agency like FEMA cannot properly prepare 
for nor respond to a disaster without effective leadership. 
What personnel changes have been made to address ineffective 
leadership within FEMA since the hurricane?
    Mr. Jadacki. Some of the changes that were made in FEMA, we 
have been providing a lot of oversight over contracting and 
those types of things. There was a goal by the Director to 
ensure that 90 to 95 percent of the vacancies be filled by the 
beginning of hurricane season. They recently achieved that 
goal. There is a number of industry experts that are now 
working for FEMA in senior leadership positions that have 
practical disaster management experience from the outside that 
they are bringing in to FEMA right now. But, again, a lot of 
these new initiatives aren't tested, so it remains to be seen 
what is going to happen when a major disaster occurs, but the 
signs are encouraging. We have seen some of the leadership 
positions being filled and some of the capabilities along with 
those positions are coming in place.
    Mr. Kucinich. The gentleman's time is expired.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes my colleague from Ohio, Representative 
Jordan. Thank you.
    Mr. Jordan. Thank you, Mr. Chairman. I appreciate the panel 
being with us.
    I had underlined the same sentence that Congressman Clay 
just pointed out in the memorandum that was prepared for us by 
the majority and the minority staff members, highlighting the 
$600 million to $1.4 billion in improper and potentially 
fraudulent payments.
    Mr. Paulison is that an accurate estimate, or is it more or 
less? Can you elaborate more? And also talk about some of the 
things you said in response to Congressman Clay's question. 
What checks? What balances? What auditing mechanism do you have 
in place so that if, in fact, that is accurate, it doesn't 
happen again?
    Mr. Paulison. The estimate of the amount of dollars of $1.4 
billion, we don't think it was that high, but regardless, there 
were not good systems in place to stop that waste, fraud, and 
abuse that we saw, so we put several things in place. One, the 
identity verification. It was going to help us tremendously, 
being able to give the right people the amount of money they 
are due and not give it to the people who don't deserve it.
    The second piece is having contracts in place ahead of 
time, where we are negotiating the contract as opposed to the 
contractor. FEMA put in place a tremendous amount of contracts 
in the middle of the hurricane, and we did not get a good deal, 
quite frankly, on a lot of those contracts. They were no bid. 
The contracts were not written into the best interest of the 
taxpayer or the best interest of FEMA, the Federal Government.
    So what we have done now is put those contracts in place 
ahead of time, what we call readiness contracts, where they are 
sitting on the shelf ready to go. We had the upper hand 
negotiating them. They are bid out, they are not no bid, to 
make sure we can stop that waste, fraud, and abuse. We want to 
be good stewards of taxpayers' money. Disasters cost a lot of 
money, but we should be able to spend it wisely, and that is 
what we are trying to do.
    Mr. Jordan. Mr. Jadacki, would you care to comment at all?
    Mr. Jadacki. Yes. One of the problems they had after 
Hurricane Katrina was the capacity of the system to accept 
applications, as Mr. Paulison alluded to. It had the capacity 
to take in about 100 registrations a day. So in order to 
increase capacity, some of the controls were dropped, and one 
of the critical controls was validating Social Security 
numbers, whether they were valid or not. Depending on how you 
applied for assistance, they would either check it or wouldn't 
check it. In some cases we found a lot of Social Security 
numbers were all zeroes or sequential and those types of 
things, but the system accepted them and provided checks to 
those individuals.
    Some of the other items that GAO pointed out in its report 
were checks going to Federal prisons and those types of things. 
In some cases, yes, they were fraudulent and we are looking 
into it. We have active investigations. In some cases, some of 
the prisoners actually had residences that were destroyed and 
they are eligible for those types of things.
    So the numbers appear to be a little high from GAO, but, 
nevertheless, there was a pretty good amount of fraud, waste, 
and abuse, a lot of because there were citizens that were 
fraudulently applying for assistance, but in some parts the 
checks and balances on the back end just weren't there.
    Mr. Jordan. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Kucinich. I thank the gentleman. The Chair recognizes 
Representative Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Welcome, Mr. Paulison.
    I wanted to talk a little bit about how we get to the point 
of a disaster being declared. No doubt when you talk about an 
incident such as Katrina, about that declaration, but there are 
dozens if not hundreds of smaller disasters that happen all 
around the country on a yearly basis. I come from an experience 
in Connecticut where we had, I think, a fairly unfortunate 
interaction with FEMA this spring when we had, on April 15th 
and 16th, some historic, major flooding in northwestern 
Connecticut and throughout the State. The next day our Governor 
was in touch with FEMA to ask for a disaster declaration, and 
it took nearly a month before that disaster was declared. It 
took, in fact, 2 months before homeowners and individual 
businesses were allowed to even apply for disaster assistance.
    Representative Shays inquired about some of the 
bureaucratic hurdles that exist within FEMA in relation to 
disaster response. It certainly seems that, at least in this 
case, there remain some fairly significant and troubling 
bureaucratic hurdles, even for the declaration of a disaster.
    In Connecticut we simply couldn't understand, as we stood 
outside and looked at flooding that we had never seen before, 
why it would take a month in order for the Federal Government 
to declare what we knew over night: that a major, unprecedented 
disaster had hit our State.
    I have some specific questions on that but first want to 
ask you in general whether you still see bureaucratic hurdles 
to disaster declarations within FEMA and the Department of 
Homeland Security.
    Mr. Paulison. We do have still a lot of work to do on the 
declaration process. No question about it. The ones that are 
really obvious and overwhelming are easy. We have been turning 
those around in less than 24 hours. The ones like in 
Connecticut and some other areas where, although it maybe 
devastated you, the thresholds that we set down for individual 
and public assistance sometimes aren't quite there and we have 
to do what we call preliminary damage assessments.
    We worked very hard with Connecticut, with the State, to 
get to yes. And it took a while, probably longer than it 
should, but at least we finally got there.
    We have to do something to streamline the process even 
better to make it move faster, and in some cases the general 
guidelines that we have that we are applying across the country 
don't necessarily work for smaller States, and that is why we 
are bringing in the small State and rural advocate into FEMA, 
to help us come up with some of those things.
    For instance, 100 homes damaged in Texas is a lot different 
than 100 homes damaged in Connecticut or a smaller State out 
there, but that is kind of like some of the rough guidelines we 
use. So we need to re-look at that whole system, look at that 
individual assistance piece, and how do we make it equitable 
from one State to another based on size, based on population, 
all those types of things.
    Those are things we are looking at. What happened with 
Connecticut, with taking 2 months for that, we don't want to 
happen again.
    Mr. Murphy. That is the second question. How long is too 
long? A disaster is a disaster. In Connecticut we have small 
towns that simply didn't have the resources available to them 
on a short-term basis in order to make some of the immediate 
emergency infrastructure improvements that they needed to make. 
I mean, in your mind how long should it take in order for a 
disaster to be declared, even if it is a smaller, more 
localized disaster like we had in the northeast?
    Mr. Paulison. As quick as we can do the preliminary damage 
assessments and get the numbers that we need. Again, it goes 
back to the thresholds that we set down to either declare a 
disaster or not, and I am not comfortable that those are where 
they need to be, again particularly with the smaller States. So 
we have to work very hard. Sometimes it takes longer to find 
all of the damage. We go back to the State, which we did with 
Connecticut, and say, look, the numbers aren't there. We do the 
preliminary damage assessments together. FEMA doesn't do them 
by themselves. We do it hand-in-hand with the State to go out 
and do that.
    Something that is major we have been turning around in 1 or 
2 days, and my goal would be to not take more than a week or so 
to get those declarations through the process and give you a 
yes or a no so that----
    Mr. Murphy. Before my time is up I want to ask one more 
question. It is my understanding that one of the hurdles is 
that right now, in order to declare a disaster, you have to 
check with the White House's Office of Budget and Management. 
It concerns me that a budgetary agency is having input on 
decisions as to whether a disaster occurred. It seems like that 
is a wholly separate question. As we have moved FEMA into DHS, 
it seems to me that some of the independence of those decisions 
is being compromised.
    Do you have to check with OMB before you make a disaster 
declaration?
    Mr. Paulison. We don't check with OMB. I make my 
recommendation to the President, and that does go through the 
Office of Budget and Management. They are the receiver of that 
for the President.
    Mr. Murphy. Do you have to wait for----
    Mr. Paulison. But we don't pick up the phone and check with 
them and say, Gee is this right? I send my recommendation over 
to them, and then they process it for the President.
    Mr. Murphy. If OMB comes back and gives a negative input or 
feedback on your requests, can you still declare a disaster?
    Mr. Paulison. The President has to sign the declaration. 
All I do, I make a recommendation to the President.
    Mr. Kucinich. The gentleman's time has expired.
    Mr. Murphy. Thank you.
    Mr. Kucinich. I thank the gentleman.
    The Chair is pleased to recognize Mr. McHenry.
    Mr. McHenry. I thank my friend for recognizing me, and I 
yield a 15-second intervention.
    Mr. Shays. Mr. Paulison, I think Mr. Murphy and I are very 
grateful that you responded to our concerns. It took a little 
longer, but ultimately we got what we needed. We are very 
grateful to you on that.
    I think, though, there is another little point that we 
realized. You need to look at metropolitan areas, because it 
may be the State is divided up in a way that neither side has 
enough, but the area has critical mass. I hope you pursue that. 
I don't want to comment now on that because the gentleman has 
yielded to me, but thank you.
    I thank our other two witnesses, as well.
    Mr. McHenry. I thank my friend, Mr. Shays.
    Mr. Paulison, we appreciate your leadership. You have had 
an enormous record of public service. This is a culmination of 
a career well trained for you.
    There are a couple of things that I think are important as 
you have an ongoing rebuilding FEMA, ensuring that not only the 
National Guard but State and local authorities are incorporated 
and the private sector. Located in my District is Lowe's Home 
Improvements. Well, they have a financial interest in making 
sure 2 by 4s and rakes and shovels and chain saws get to 
affected areas, and they do this very well. They have a whole 
facility dedicated to this. I am sure Home Depot, as well as 
the big box retailers like Wal-Mart, all have that facility up 
and running.
    What have you done to coordinate the private sector 
response?
    Mr. Paulison. One of the biggest issues that I see in 
hurricanes, particularly being raised in south Florida, is 
getting those businesses back up and running as quickly as 
possible and building that resiliency. The Stafford Act does 
not allow us to assist private businesses. What we can do is 
work with them and lecture to them and talk to them how do they 
build resiliency into their business so they can get back up 
and running.
    Mr. McHenry. With all due respect, Mr. Paulison, that is 
not the issue. I am asking if you are asking them for help.
    Mr. Paulison. I misunderstood.
    Mr. McHenry. I will tell you----
    Mr. Paulison. We are. Yes, sir. Can I finish?
    Mr. McHenry. I will tell you that they have the capability, 
they have the technology, they have the ability, and, based on 
what I have seen out of FEMA prior to your service, FEMA 
doesn't have it, but these private sector entities do.
    So I am not asking you to assist a private sector company; 
I am asking if you are asking them to assist you, because I 
will tell you this: Wal-Mart could get bottled water there. 
They could get those trucks of ice that were never delivered, 
the tens of millions of dollars we spent on ice for Katrina 
that was never delivered. I am sure Wal-Mart could get it 
there. I am sure Yellow Freight could find a way to get it 
there. What are you doing to incorporate them?
    Mr. Paulison. Yes, sir, we are, and what we are trying to 
do is to bring FEMA into the 21st century logistics-wise and 
use some of those business models that you just talked about.
    We are meeting with the business roundtable, with the 
National Chamber of Commerce, with other groups like that to 
tap into that expertise. We are working with a couple of groups 
now to bring perhaps some interns from the private sector into 
FEMA to help us learn from them of how they move these types of 
logistics. The people that I am hiring in the logistics area 
have that type of expertise.
    We are definitely looking to that business model. We are 
talking with them. We are talking to the Home Depots, we are 
talking to the Wal-Mart's about how do we do that, how do we do 
a better job of providing logistics and not necessarily taking 
it all on ourselves but use that third-party logistics where we 
can tap into what they already do and what they do best as far 
as moving supplies.
    Mr. McHenry. The thought I have is that, instead of trying 
to rebuild what is out there in the private sector, utilize the 
private sector, whether it is Lowe's or Wal-Mart or even 
grocery stores that have an interest in getting products to the 
marketplace. They just need some assistance.
    To that end, what about first responders' ID cards? For 
instance, if the home improvement store, like Lowe's that I am 
familiar with, if they have employees that are trying to get to 
the facility, if we had an ID card for first responders they 
would be able to get through maybe two or three jurisdictions 
in order to get to the facility that otherwise they couldn't 
get to because they don't have an identification card that 
refers to them as first responders. Same for local fire 
departments, volunteer fire departments. Where are we in this 
process for a first responder ID card?
    Mr. Paulison. We are looking at a credentialing system for 
this country for first responders--nurses, doctors, paramedics, 
all those types of things. Mr. Geldhart, who is going to 
testify on the next panel on the National Capital Region about 
what they are doing is a prototype system here, to see if this 
system is going to work and how we are going to use that.
    But what you are saying is actually right on target. That 
is where we want to go. We want to credential people so if I am 
going to the disaster scene if I am the local fire chief or the 
local mayor I know who is coming into my district and I know 
what credentials they have.
    Hurricane Andrew, I had 3,500 fire fighters show up to help 
out. I didn't know who they were or were they really fire 
fighters. At the World Trade Center we had the same type of 
thing--people crawling on that rubble pile that we don't know 
who they were. That has to stop.
    The national credentialing system is where we really need 
to go, and we are working on that right now.
    Mr. McHenry. Thank you. I appreciate your comments.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    As I think everyone is aware now, there is a vote on. We 
are going to entertain questions from Mr. Towns of New York, 
then the committee will recess for the vote. I am going to ask 
the witnesses to return because we have more questions.
    Mr. Towns, would you proceed? Thank you.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Paulison, on May 15th Chairman Thompson of Mississippi, 
who is the chairman of the Homeland Security Committee, held a 
hearing on hurricane season preparedness. During that hearing, 
Mr. Paulison, you were asked for an approximation of the NRP, 
when would it be ready, the National Response Plan. This is 
what you said: ``I can tell you that we are working hard to get 
it done in the June timeframe and not in July.'' Now, Mr. 
Paulison, this is the last day of July, the last day. My 
question is: what is the problem?
    Mr. Paulison. It is not a problem; it is the issue of 
trying to make sure we get it right. We set some artificial 
time lines for ourselves to get this thing done. That is when I 
testified in front of Mr. Thompson's committee, and I was 
sincere about that, but I was not going to put it out just to 
meet an artificial date.
    We are now distributing the National Response Plan among 
the rest of our Federal partners. We will have a copy to this 
committee hopefully within a week, and then we are going to put 
it out for review to the first responder and emergency 
management world out there on a 30-day review very shortly. So 
we are going to do that.
    Yes, it is not where I wanted it to be, but we do have an 
actual response plan in place. It is not like we are operating 
without a plan. The plan is there. The one we are reviewing now 
brings some of the Post-Katrina Reform Act issues into it. We 
wanted to make it less bureaucratic, more readable. We wanted 
to make it smaller, take some of the annexes out and put them 
on the Web so it wasn't such a bulky document.
    Mr. Towns, I just want to make sure that when it goes out 
it is as right as I can get it, and that is the reason for the 
delay. But those dates were artificial. I set up to really push 
myself and our team to get it out. We didn't meet those dates, 
but we are going to get it out very shortly.
    Mr. Towns. We are into the hurricane season already, so, 
Mr. Jadacki, could you comment on that? I mean, here we are. We 
entered the hurricane season. The States have to prepare for 
incorporating into their plans. I mean, there has to be 
coordination here. This has not happened. I would like to get 
your comments on that.
    Mr. Jadacki. We did a lot of work immediately after 
Hurricane Katrina. We spent about 5 weeks on the ground down in 
the Gulf area. One of the things that we found was that there 
was a lot of confusion that was created as a result of the 
National Response Plan being rolled out really for the first 
time with some of the names and incident command system and 
those types of things. There was a lot of confusion. I think a 
lot of the reports that have been written as a result of that, 
lessons learned, identified the need to revise the National 
Response Plan so the clear roles, the roles of the FCO versus 
the PFO and those types of things, are clearly defined so 
people know.
    The fact that the National Response Plan is not issued yet 
doesn't clarify those roles yet. As we are in the midst of 
hurricane season, I think there may still be some confusion if 
there is another catastrophic event.
    Mr. Towns. Mr. Chairman, I know we have a vote so I am 
going to yield back.
    But I want to let you know, Mr. Paulison, that this is very 
disturbing. I think that if there is a need for additional help 
or resources or whatever it is, I think you need to yell out 
and let us know, because we are talking about the lives of 
people. Of course, as you heard from the comments coming from 
the various members of this committee, we are troubled by what 
is going on. Of course, I must say that you did not relieve my 
pain.
    With that, I yield back.
    Mr. Kucinich. I thank the gentleman. I want to just say to 
the gentleman that when we come back after the votes we are 
going to continue this line of questioning. Staff has provided 
us with some additional information that is critical to being 
able to establish where we are at this moment.
    I thank the gentleman.
    The Chair recognizes the distinguished gentlewoman, 
Congresswoman Virginia Foxx, for questions, and then as soon as 
you are complete we are going to go right to the vote.
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate this. I am 
not going to be able to come back afterwards because of a 
meeting I have to go to.
    I want to say to you, Mr. Paulison, that I share Mr. Towns' 
comments and his concerns. You used the word you are trying to 
get it right. Do me a favor, try to pick up that cup in front 
of you. You picked it up. You didn't try. You did it. This 
issue of the plan is a metaphor for what is wrong with FEMA, 
and the fact that you are not getting your plan done in a 
timely fashion does not give me or the American people any 
comfort that you have learned lessons at FEMA and that you are 
doing things differently.
    When you set that deadline, I respectfully say to you that 
you could have done a lot to help the image of FEMA, and 
perhaps not just the image but the impact of FEMA, had you 
stuck to the deadline, because by not being able to mobilize 
within your own Agency, plus with the other agencies to get a 
plan done, what does that tell the American people about the 
effectiveness of FEMA doing its job? I am not sure why you 
couldn't understand that, again, as a metaphor for the whole 
problem with FEMA.
    You have used words, ``We are going to start acting like,'' 
``hopefully,'' ``trying.'' I would again respectfully say to 
you that those are words that indicate in the future something 
is going to happen; it is not happening now. It has been a long 
time since the failures of FEMA with Katrina, and I think that 
it is time for action, not trying.
    Mr. Kucinich. Would the gentleman like to respond?
    Mr. Paulison. Again, the National Response Plan is in 
place. We are simply making it a document much easier to use.
    Mr. Kucinich. The Chair would like to observe that the 
gentlelady's remarks are quite perceptive, because when you 
listen to the language about whether there is preparedness, it 
is one thing to say you are going to try, you are hoping, but 
it is another thing to be able to do. So when the committee 
comes back we are going to go to a second round of questions 
quite specific about the level of preparation, and so I want to 
thank the members of the panel. I would ask that you remain in 
the vicinity. The Chair is going to declare a one-half hour 
recess and we will return for questions immediately after 
votes.
    Thank you very much.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    I want to thank the witnesses for remaining, and we are 
going to begin a second round of questions. We just had a 
series of votes, but Members may be rejoining us. They will 
also be entitled to ask some questions.
    I would like to begin by sharing with the members of the 
panel a story, and it is a story that relates to preparedness.
    About 30 years ago I had the honor of being elected mayor 
of the city of Cleveland. At that time there was a very short 
transition to the office. The election was on a Tuesday, and 
the following Monday the new mayor was sworn in.
    A few weeks into my term we were visited by an unexpected 
snow storm. One of the worst storms of the century hit the city 
of Cleveland. I was the new mayor, and I was intent on 
demonstrating to the people that the city was ready, because we 
had a wonderful work force in the service department that 
operated the snow plows, and the personnel we had were just the 
best. So I called my new service director, Morris Pettis, and 
with the feeling of a new general I called and I said, 
Director, Pettis, get those snow plows out on the road. Clear 
those streets. We are going to show the people of Cleveland 
that we can do the job. He said, Yes, sir.
    About 2\1/2\ hours later I got a call from Director Pettis, 
and he said, Mayor, we don't have any snow plows. We had the 
manpower, but they didn't have the plows, because the previous 
administration had sent all the plows out to be repaired and 
didn't provide that the city would have equipment to be able to 
move the snow. The result? Our city was buried in snow for 
weeks.
    Now, I am sharing this story with you for an obvious 
reason. We had terrifically prepared workers that could do the 
job. They didn't have the equipment.
    Now, Mr. Jadacki, your job is to review this preparedness 
that the Department asserts. Is the United States prepared for 
the next catastrophic disaster?
    Mr. Jadacki. We are better prepared than we were 2 years 
ago.
    Mr. Kucinich. That is not saying a lot, my friend.
    Mr. Jadacki. Right.
    Mr. Kucinich. You don't want to use that as a benchmark.
    Mr. Jadacki. Right.
    Mr. Kucinich. I will give you another shot at it.
    Mr. Jadacki. OK. We are not there yet. A lot remains----
    Mr. Kucinich. Where are we not yet? I want you to be quite 
specific.
    Mr. Jadacki. I don't think we will ever get to an end 
point. It is always evolving. There are always new threats. 
There are always new types of disasters, always changes. So if 
you are looking for an end point, I can't say when that is 
going to be.
    Mr. Kucinich. You know what I am looking for? I am looking 
for you to be quite specific. Plan, logistics, equipment, 
manpower, womanpower--I want specifics. This is part of your 
job. You are, in fact, the Deputy Inspector General in the 
Office of the Inspector General, Department of Homeland 
Security. You are the person that Congress counts on to oversee 
and look over the level of preparedness.
    Mr. Jadacki. OK. I will tell you that in catastrophic 
planning more needs to be done. We are not there yet. I will 
tell you in logistics that a lot more needs to be done. There 
are systems that are getting into place, but more needs to be 
done.
    Mr. Kucinich. Where are we not that we should be? Please be 
specific. This is too general, and the whole idea of emergency 
preparedness is to be quite specific. We have had a bipartisan 
hearing where Members are looking for specifics. Generalities 
won't do. Please be specific.
    Mr. Jadacki. I don't think the Nation is ready for the next 
catastrophic event or series of events if it occurs because of 
some of the issues that were discussed before. The National 
Response Plan is still an issue that is evolving. There is 
communications, there is confusion.
    There is a draft that is out right now, but I think that if 
we had another catastrophic event right now there would be some 
improvement but we are not there yet. I can't give you a 
percentage of how close we are, but we are not there yet in a 
number of areas, probably hundreds of areas: acquisitions, pre-
positioning supplies, logistics, the National Response Plan, 
staffing--I think FEMA is making strides in getting staffing. 
We are not there yet--State communication. I still think there 
are issues that can be resolved in all those areas, and more.
    Mr. Kucinich. Catastrophic disaster exercises, are we there 
yet?
    Mr. Jadacki. We are not there yet.
    Mr. Kucinich. OK. Information technology capabilities, are 
we there yet?
    Mr. Jadacki. There are improvements there, but we are not 
there yet.
    Mr. Kucinich. Funding, are we there yet?
    Mr. Jadacki. No, we are not there yet.
    Mr. Kucinich. Leadership, are we there yet?
    Mr. Jadacki. No.
    Mr. Kucinich. OK. We are not there yet.
    Mr. Jadacki. Right.
    Mr. Kucinich. OK. I think it would be very helpful if you 
would provide this committee with the list of exactly what 
remains to be done in order for the American people to be 
assured that their Government will be able to respond in a way 
that they can be confident.
    How long will it take you to be able to put together a 
detailed report going over the areas that you have just 
basically off-the-cuff responded to? How long would it take you 
to create the list and then let us know where the deficiencies 
are so that we may be able to track the level of readiness and 
provide resources or whatever needs to be done in order to 
encourage the readiness? How long would it take you?
    Mr. Jadacki. I would say at least 6 months to put together 
a report of that magnitude.
    Mr. Kucinich. Wow. Is there something you could do in a few 
days so that you could help us, at least on an interim basis?
    Mr. Jadacki. We can probably do a high-level review based 
on some of the work we have done over the past couple of years 
and some of our experience dealing with some of the FEMA 
activities in a short period of time. But if you are looking 
for a more comprehensive review, that would probably take 
longer.
    Mr. Kucinich. But just from a short period of time, how 
long would it take you to be able to at least notify this 
committee of the level of preparedness?
    Mr. Jadacki. I think to do a high-level review, probably 90 
days we can do a high-level score-card-type review.
    Mr. Kucinich. I think it would be helpful to have a score-
card-type review, but let's go to a shorter term here. What are 
the critical areas that you think we need to focus on for an 
immediate improvement in preparedness in the event of another 
hurricane, let's say?
    Mr. Jadacki. I think the lines of communication are 
critical. I think the roles of the various parties at the 
Federal, State, and local level. I think a clear understanding 
of the FCO's responsibility versus the PFO's responsibility is 
critical. I think interoperability among the various first 
responders is critical, and I think logistics is probably a 
critical thing that needs to take place now in the midst of 
hurricane season--supplies, those types of things. I also think 
coordination with other Federal agencies I think is also 
critical, too, the prescripted mission assignments and those 
types of things.
    Mr. Kucinich. Just so you understand this approach in this 
hearing, this isn't a ``gotcha'' hearing. I am not interested 
in that. I want to see what kind of guidance FEMA could receive 
and that the National Guard could receive so that whatever 
resources are available right now would be put to the best use 
in the event that there was some type of disaster, so it is in 
that spirit that I think it would be important for the 
Inspector General's office to provide some immediate response 
to the committee so that we can look at it now. Even 90 days 
might be a problem. I mean, there are some areas--you just told 
us a few areas--catastrophic disaster exercises, for example, 
Mr. Paulison. The Inspector General's Office, you are not 
there. This relates to a question that Eleanor Holmes Norton 
raised at the beginning. Your answer was somewhat divergent.
    We all understand that real-life exercises require a vast 
movement. I don't think she was asking about that, but I am 
just giving you the concerns that members of this committee 
have about the level of preparedness. Your job is to say you 
are going to do everything you can to get ready. I understand 
that. You made it very clear.
    Representative Virginia Foxx also made it clear that we 
have to look at the rhetoric here. We can't soft-soap this. We 
can't tell the American people yes, we are ready, and not be. 
We need to be very candid with the American people.
    I am going to ask Mr. Jadacki to work with FEMA and the 
National Guard. And I would like to engage my colleague here, 
who has actually spent more time than anybody on this committee 
on this, Mr. Davis, in assisting in this line of inquiry.
    Do you have any recommendations as to what would be helpful 
to get the committee up to speed so we get a good read of where 
we are so we can know where we need to push, my friend?
    Mr. Davis of Virginia. Well, I mean, there are a lot of 
things. We have talked about it. I think that the test runs 
that you do are very, very important. As you know, they did a 
Hurricane Pam prior to Katrina, which went fairly well, but 
when Katrina came it was so overwhelming we didn't follow the 
models that had been set there. But, as I said in my opening 
remarks, this isn't just like a spare tire you can take out of 
the trunk and hope it works; you have to constantly be testing, 
you have to be asking tough questions. I think it would be good 
for the committee to understand some of those models that you 
are looking at, that you are simulating and testing again, to 
see where the weaknesses are.
    One of the difficulties you had in the whole Department of 
Homeland Security is you took 22 different agencies and 170,000 
employees and put them under one roof with a lot of different 
cultures and a lot of different missions, and it is a work in 
progress. Just getting the computer systems to mix and match up 
and work across platforms, that we give them a FISMA grade 
every year, and it has been bad because yours is as bad as your 
weakest link.
    This is a tremendous undertaking. What we have tried to do 
with FEMA is kind of take you out of that and make you 
autonomous, so that when there is a crisis you have access to 
every asset of Government in whatever agency it is. We saw in 
Katrina it didn't all come as quickly as we would have liked. 
Now, part of that was the fact that we weren't coordinated 
locally. We didn't have that. But some of these simulations let 
us know very early on what is happening, how quickly you can 
get access to all of the elements that the Government has put 
together.
    Katrina was an overwhelming, unforgiving storm, but as we 
look back at it there were so many little mistakes in this 
storm that was so unforgiving they have become exaggerated. The 
prospects for this year and the projections for the hurricanes 
this year are not good, so it would be helpful to know what 
simulations they are using, Mr. Chairman, what we are testing 
against, and what weaknesses appear, because nothing ever 
worked perfectly even in the simulation.
    Mr. Kucinich. And I would like to add to my colleague's 
suggestion that 20 years ago there was computer software out 
there, SimCity, where actually it was kind of a test of 
logistics of what do you need to be able to do to manage a city 
under different circumstances. I think that it would be useful, 
as Mr. Davis said, to look at where you are with that kind of 
modeling that would enable the broader discussion among all the 
operations in Government.
    Would you like to respond, Mr. Paulison?
    Mr. Davis of Virginia. Could I ask one quick question, too? 
The other question is just having key personnel there. I mean, 
this personnel is an issue in every Government agency in key 
positions, being able to attract and retain the best and the 
brightest. This is an agency, again, where expertise and 
experience are at a premium.
    Mr. Kucinich. Mr. Paulison.
    Mr. Paulison. And actually we have done very well in that 
area as far as bringing the right people in.
    Let me talk about the exercises you talked about.
    Mr. Kucinich. Go ahead, sir.
    Mr. Paulison. Since 2005 we have a course at the Emergency 
Management Institute called the Integrated Emergency Management 
Course. We bring 70 people from a particular city into 
Emmitsburg and keep them for a week and walk through similar 
things. We have done 134 cities since that time to bring them 
through that course, and hundreds before then. Salt Lake City 
went through just before the Olympics. Oklahoma City went 
through it before the bombing, and other cities. We just 
brought New Orleans in to bring the top administrators in the 
individual cities, because we know that response is at that 
local level and they have to be ready because they are the 
first responders.
    Mr. Kucinich. And I think that what you have just said 
confirms that you have done some response capabilities with 
respect to terrorism scenarios. But, according to Mr. Jadacki, 
you haven't done a natural catastrophic disaster test run.
    Mr. Paulison. What we do on the catastrophic----
    Mr. Kucinich. Is that correct?
    Mr. Paulison. First of all, we bought in planners into FEMA 
that we have never had before. We just hired 13 operational 
planners. I was incredulous to find out we didn't have those 
people in place. But we are doing catastrophic planning right 
now. One is a hurricane in south Florida, going through the 
Miami Dade and Broward County, Palm Beach area. Probably 6 
million people live in that area--catastrophic plan around Lake 
Okechobee, catastrophic planning for the New Orleans, 
Louisiana/Mississippi area, and catastrophic planning for the 
New Madrid earth fault, and also catastrophic plan for 
California for a major earthquake out there. So we are now 
putting those plans in place and doing them to make sure we 
have those rock solid plans.
    The exercises are extremely important also. We inherited 
the training and exercise program of the Post-Katrina Reform 
Act and brought those into FEMA. That is allowing us to 
integrate like we could not do before. We can do some things 
now that we could not do before, where we had a separate 
training section over in DHS and FEMA was doing its own thing. 
Now it is all together.
    So the work that the committee did to help get that through 
is invaluable for us as far as making sure that our cities and 
our States are going to be ready for these type of disasters.
    Mr. Kucinich. Well, appropro of what Mr. Davis just said, I 
have here the most recent report from the Intergovernmental 
Panel on Climate Change, which, as you know, is an assembly of 
the world's most famous and leading scientists. On page 8 of 
this report, table SPM.2, they project--and I would ask you to 
follow this carefully--that ``the likelihood of future trends, 
based on projections for the 21st century, for intense tropical 
cyclone activity increases; likely, increased incidents of 
extreme high sea level; likely, high precipitation events; 
frequency increases, very likely.''
    Without objection, I would like to include this in the 
record of the hearing.
    [The report of the Intergovernmental Panel on Climate 
Change follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. I would ask Mr. Paulison, can you tell this 
committee if FEMA is or is not planning for any effects 
attributable to calculation?
    Mr. Paulison. I am making sure that this organization is 
ready to respond, regardless of what comes our way. The 
prediction of hurricanes has not been very scientific. Last 
year we were predicted to have a lot of hurricanes; we did not 
have them. So far we have had none this year. We do have one 
storm out there north of Bermuda. But we are going to be ready, 
regardless of what the calculation people say to make sure yes, 
we are getting ready for that.
    Mr. Kucinich. OK.
    Mr. Paulison. We are going to be ready for that. I am 
trying to be as positive as I can.
    Mr. Kucinich. Do you have that as a matter of policy, 
though? I mean, for example, in your policy division, which you 
have developed, does the policy division have a policy on 
global warming?
    Mr. Paulison. FEMA does not have a policy on global 
warming. We have a policy that says this organization is going 
to be ready to respond to disasters, whether they are natural 
disasters, whether they come in bunches or they come one at a 
time.
    Mr. Kucinich. But does FEMA have a position that 
calculation would have no impact on the kind of natural 
disasters that we are supposed to deal with?
    Mr. Paulison. I am not a climatologist nor am I a 
meteorologist, so I don't know what impact the climate change 
is going to have on natural disasters. All I am telling you is 
this agency is ready to respond, and we are going to continue 
to be ready to respond.
    Mr. Kucinich. Did you have an interest, though, on the 
impact of calculation on creating natural disasters? Is that 
something that has occurred to you?
    Mr. Paulison. Well, of course it would. Any time we get 
predictions that there is going to be something worse coming on 
down the road----
    Mr. Kucinich. You don't dismiss that out of hand?
    Mr. Paulison. No, sir. No, sir.
    Mr. Kucinich. I just was curious about that.
    What I would like to do, since Representative Jindal is 
here and has not yet had a chance to ask questions, with the 
permission of Mr. Davis we could perhaps refer to Mr. Jindal.
    You have the floor for 5 minutes. Thank you.
    Mr. Jindal. Thank you very much, Mr. Chairman and Mr. 
Davis. Thank you for allowing me to sit in on the committee, 
and thank you also to the committee for allowing me to 
participate in the previous hearing on the trailers and the 
formaldehyde hearing.
    Mr. Paulison, it is good to see you again. I want to thank 
each of the witnesses for their testimony.
    I have several questions. Mr. Chairman, with your consent I 
would like to submit my written statement for the record, if 
there is no objection.
    Mr. Kucinich. Without objection.
    Mr. Jindal. Thank you. Thank you, Mr. Chairman.
    I should have asked for more, Tom.
    Mr. Davis of Virginia. Without objection.
    Mr. Jindal. I have several questions also to submit for the 
record, but I have two points I really want to make with the 
time I have. The first has to do with the regional office 
infrastructure. You know, back after the hurricane struck in 
2005, the White House released its assessment, the Federal 
Response to Hurricane Katrina, Lessons Learned: Identifying 
Critical Flaws in the Nation's Response, including, in terms of 
preparing this, an absence of regional planning and 
coordination.
    According to the report, DHS did not have the needed 
personnel or resources in the regional offices. This led to 
reduced communications and an understanding of onsite needs, 
further delaying an effective response.
    That report actually recommended an increase in regional 
response capabilities, specifically called on DHS to build 
regional structures to integrate State and local strategies, 
and capabilities to encourage regional partnerships. Indeed, in 
the Homeland Security Act of 2002, Congress mandated that DHS 
set up a regional structure. On April 28, 2005, 4 months before 
Hurricanes Katrina and Rita struck the Gulf Coast, I actually 
called on Secretary Chertoff to follow through with a regional 
framework in which Louisiana would have been equipped to 
facilitate a regional response.
    My first point, my first question is this. When you 
contrast the Coast Guard's response, an agency within DHS, 
versus FEMA's and other agencies', there is a much more robust, 
much more effective response, I think partially due to the fact 
the Coast Guard had boots on the ground before the storms, they 
knew the area, they knew the people. That wasn't their first 
experience.
    Given the fact the Gulf Coast will be hit in the future by 
future hurricanes, future storms, certainly we have been a 
long-time advocate for a robust DHS regional office in the 
greater New Orleans area in Louisiana.
    My first question is a leading question, but my first 
question, the same question I asked the Secretary in 2005, 
Don't you agree an enhanced regional structure could improve 
the flow of communication between Washington and local 
emergency management officials? I know you all have staffed up 
some of the regional administrators, but couldn't we do more to 
have a more robust presence on the ground?
    Mr. Paulison. Yes, sir, we can and we are.
    Mr. Jindal. I will followup in writing. One of the reasons 
I want to spend some of my time talking about this, I do want 
to continue to get public commitments, because I do think there 
is an opportunity. New Orleans is building a Federal city 
concept, bringing together different Federal agencies. There is 
already a regional headquarters there for the Coast Guard, for 
Customs, for different Federal agencies that are part of DHS. 
It just seems like it would be a natural place to consolidate 
and get those synergies.
    I thank you for your commitment to that. Like I said, I 
would like to followup on that with you.
    My second question is: you all have done an assessment, and 
you refer to this in your statement earlier about the gaps and 
preparedness among the different States. I know in Louisiana, 
in part, you identified some gaps when it came to in-place 
sheltering, when it comes to transportation and other things in 
terms of being prepared. This is especially important 
considering the fact we are in the middle of another hurricane 
season.
    Last year we passed in Congress the Post-Katrina Emergency 
Reform Act that required FEMA to provide assistance to the 
States in terms of evacuations. I also added some language to 
the Defense authorization bill requiring the Secretary of 
Defense to pre-position pre-identified assets such as medical 
supplies, food, water, and communications equipment to help the 
Department of Defense help us, to help the Department of 
Defense respond to requests from civilian authorities. The 
provision also called for Defense to work with DHS to develop 
concept plans to maximize military support.
    You talked about the gaps in Louisiana, and some of those I 
have talked about. given the directives in last year's 
legislation, what is the status on your work with Louisiana in 
providing additional shelter space, pre-positioned supplies, 
and what can we do to utilize the Homeland Security grant 
program to help meet those needs that are identified in that 
gap analysis?
    Mr. Paulison. Particularly in Louisiana, but we have done 
it pretty much from Texas all the way to Maine, but 
particularly in Louisiana we have been working very closely 
with the State and the cities to make sure we have adequate 
shelters identified to put people in, who is going to staff 
them, who is going to put supplies in them. Also, for 
transportation modes in place, how many people do we think are 
going to self-evacuate in their own vehicles, how many buses 
without objection we need, do we have ambulance contracts in 
place? And the answer is yes to all of those. We now have 
identified enough shelter space for the predicted amount of 
people that would evacuate out of New Orleans and out of 
Louisiana should a hurricane come.
    We did it with three States. We did it with Mississippi, 
Louisiana, and Alabama, together, because we know what affects 
one State affects all the others. This is the most robust 
involvement FEMA has had with working with States to fill those 
gaps and making sure that we have good, solid plans in place to 
move people out.
    Louisiana really stepped up to the plate this year, has put 
bus contracts in place and other things to really help us work 
together as a team to make sure that, if we do have to 
evacuate, that we know where people are going to go and how 
they are going to get there.
    My time has expired. My last point, Mr. Chairman----
    Mr. Kucinich. I just want the gentleman to know that if the 
gentleman wishes to ask questions for another 5 minutes, I will 
permit that, because I think that, given the fact that you 
represent Louisiana, you are entitled to this. So if you would 
like to proceed, proceed.
    Mr. Jindal. Well, I appreciate the chairman's indulgence. 
Thank you. And I thank the ranking member, as well.
    Mr. Kucinich. Without objection.
    Mr. Jindal. What I was going to make in my final moments--
and I appreciate the additional time--is that one of the things 
I would certainly ask FEMA to consider doing is providing 
guidance to the State about the best use of those security 
grant programs to help fill these gaps year in and year out.
    I know one of the things we have heard, for example, there 
has been a lot of funding--maybe not enough, but a lot--
provided, for example, for interoperable communications. One of 
the things we are hearing is that if those dollars aren't 
coordinated and spent effectively, we may not get that chance 
again. We did not have interoperable communications we needed. 
We didn't have it in Oklahoma City, we didn't have it on 9/11, 
and we certainly didn't have it after Hurricanes Katrina and 
Rita. So as you identify gaps, I would request that FEMA help 
provide guidance to the State on what might be the best ways to 
utilize some of the discretionary Homeland Security grants to 
help make sure that we can address these gaps.
    You know, one of the things I added in that language was 
requiring coordination with the Department of Defense to pre-
position. I heard your comments before about having generators 
for hospitals and wanting to avoid no-bid contracts, and I 
applaud you for that. I absolutely agree. We don't want to be 
in that same position again where we don't have adequate food 
and water supplies. But then we also don't want to end up 
paying too much for supplies. We saw what happened in the last 
couple of years.
    What has been done as far as coordinating with the 
Department of Defense? I put that language in there. Has that 
taken place to your satisfaction? Is there more that could be 
done between the two departments?
    Mr. Paulison. Like I said earlier, we have the best 
relationship with the Department of Defense, NORTHCOM, and the 
National Guard than we have ever had. I know Katrina was a wake 
up call for all of us, and we recognize we have to work 
together, we have to plan together, we have to train together 
so we are not exchanging business cards in the middle of the 
disaster.
    We have put a Defense coordinating officer in every region 
in this country, every region that FEMA has, to help with that 
coordination. We meet. We have a videoconference with them 
every week and with NORTHCOM on there. We meet with the 
National Guard to make sure that we are coordinated, we are 
sharing information, and we are working together as a team as 
opposed to working in silos.
    We are doing this. We are going to continue doing it. It is 
the right thing to do.
    Mr. Jindal. I have two last points. One of the points I 
want to make--and I have said this at previous hearings--one of 
the things I am going to advocate for, and I would hope you all 
would be supportive of this, I think there is a lot of 
flexibility in the Stafford Act we have not taken advantage of, 
but I do think that there needs to be a completely different 
category for the kinds of catastrophes that were Hurricanes 
Katrina and Rita.
    For example, allowing more flexibility on housing, allowing 
more flexibility for the assistance. I think we could have done 
more with the dollars we ended up spending, but too often found 
ourselves tied by rules--for example, not being able to improve 
public infrastructure; the rules requiring us to replace what 
had sometimes been there before; the rules that are preventing 
the hazard mitigation money to help families who are trying to 
get help through the Road Home program.
    I know we have declarations for disasters, but I think we 
need a designation for a catastrophe.
    I want to ask you one of the things. If, not when, if we 
get to that point I would hope that FEMA within the 
administration would also advocate for that.
    My last question. I know there had been press reports that 
after the hurricanes, after the storms there was approximately 
$854 million in cash and oil that was pledged by foreign 
governments, but only $40 million has been used so far for 
disaster victims or for reconstruction. I know there were some 
issues with the State Department. What mechanisms have FEMA and 
the Department of Homeland Security made to reduce the 
bureaucracy to make sure that if there are future offers of 
support that they are handled in a more effective way?
    Mr. Paulison. A major, major problem for us and 
embarrassment, as far as I am concerned, not having a system in 
place to handle donations from our friends in other countries, 
so we have worked with our Office of International Affairs, we 
are working with the State Department, working with the 
Department of Homeland Security to make sure that we have a 
plan in place, and we do have a plan in place. One, making sure 
that people understand what our needs are so we are not being 
offered things that we can't use; making sure we have a place 
to put them, and how we are going to distribute those. We have 
put those plans in place so that does not happen again.
    We have a lot of friends around this world who offered a 
lot of things. Some of it we could not use, and we should have 
let them know right up front what our needs were and what we 
could use.
    Mr. Jindal. Even my extended time has expired, but I want 
to ask you one last quick question to make sure I am 
understanding. In your judgment, based on the assessment gap 
and the work you have done, do you feel the Gulf Coast is 
ready, God forbid, if there should be another hurricane on the 
order of magnitude of another Katrina?
    Mr. Paulison. Congressman, I do. Louisiana is, in my 
opinion, more ready than it has ever been. They have really 
done a great job of putting this organization back together, 
getting on board. We still have issues, as you know because you 
live there, with the parishes not talking to the State. The 
communication system there is not what it should be. But as far 
as what I see happening on the ground, as far as making 
preparations for contracts in place, having shelter in place, 
willing to make evacuation calls early, and also with our new 
policy of, if a State can ask for pre-landfall declaration, we 
will help them with that, as any Gulf Coast State. So I think 
with all those things in place I am comfortable we are going to 
be able to respond there and we are going to do a good job if a 
hurricane does come. God forbid, we don't want one. They surely 
don't need it right now with everybody in those mobile homes 
and trailers. But yes, they are as ready as I have ever seen 
them.
    Mr. Jindal. Thank you. And thank you, Mr. Chairman, for 
your indulgence.
    Mr. Kucinich. I just want Mr. Jindal to know that the 
members of this committee support you and your community and we 
want to make sure that all your questions are asked and that 
you are satisfied that everything is being done.
    When I spoke to Mr. Jadacki earlier, he had said that it 
would take 6 months to be able to get a detailed assessment of 
readiness and that perhaps some degree of report might be 
available in 90 days.
    What I am going to ask you to do is this, Mr. Jadacki--to 
at least provide us when we come back in September, 1 month 
from now, with the areas of concern that you have, and then 
within 90 days to be able to establish, on a scale from 1 to 
10, some quantification of the degree of readiness, with 1 
being the lowest and 10 being the highest. If you could do 
that, it would give this committee some ability to be able to 
know where we are going.
    Can you respond to that question?
    Mr. Jadacki. Yes. I think we can meet those deadlines.
    Mr. Kucinich. I think that would be something we would find 
comforting.
    Mr. Jadacki. And that will be working closely with FEMA.
    Mr. Kucinich. That is appropriate, and we appreciate that. 
And with the Guard, of course.
    Also, before dismissing the first panel, I would just ask 
Mr. Paulison, I want to clarify your answer to my previous 
question. This is a question. Is FEMA incorporating the 
predicted effects of global warming into its planning, yes or 
no?
    Mr. Paulison. The answer is no. We are planning for the 
worst and hoping for the best, so regardless of what the 
predictions are, we are going to make sure the organization can 
respond to disaster, whether they are hurricanes or terrorist 
event or anything else.
    So do we plan on the weather changing? The answer is no. 
What we do is plan on having hurricanes and dealing with them.
    Mr. Kucinich. Do you think it would be appropriate for FEMA 
to consider the predicted effects of global warming in your 
planning?
    Mr. Paulison. I do. I think there are modeling tools that 
are out there that we can tap into that we have not been that 
could be useful for us in planning for the future of this 
organization, so the answer is yes.
    Mr. Kucinich. So will FEMA from this point on incorporate 
the predicted effects of global warming into its planning?
    Mr. Paulison. Yes, sir. We will look at that very closely 
and work with our Science and Technology Department, along with 
other modeling tools that we know we are going to have to use 
to do a better job of planning for the future.
    Mr. Kucinich. I just want to make sure, as we are moving 
forward now, that we have a clear and concise response from 
FEMA with respect to incorporating predicted effects of global 
warming into planning, because then that relates essentially to 
readiness. So you are saying that you will do that?
    Mr. Paulison. Yes, sir. That is one of those things we have 
to deal with, just like everything else.
    Mr. Kucinich. You know what? That then is part of the new 
FEMA.
    Mr. Paulison. OK.
    Mr. Kucinich. I want to thank the members of the panel for 
their patience and their participation. I want to thank you on 
behalf of every member of this committee. We had many Members 
show up for participation today.
    What we are going to do, now that we have concluded the 
testimony from panel one, we have many significant issues that 
will be raised on a second panel that we could not address on 
the first panel, and so I want my staff to summarize those 
issues in a letter to you, Mr. Paulison, so that you can 
address them after the hearing.
    I want to thank you members of the panel--Major General, 
Mr. Paulison, Mr. Jadacki. You are much appreciated and you are 
excused.
    We will now take a 5-minute recess to allow for our staff 
to set up the second panel, so 5 minutes from now we will 
begin.
    Again, thanks to each of you for your service to our 
country.
    Mr. Paulison. And, sir, thanks to you also. The feedback 
from this panel is extremely helpful for us in putting this 
organization back on track. Thank you.
    Mr. Kucinich. Well, we are all working together. Thank you.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    The first witness had to leave to take a flight, so we are 
going to put into the record the testimony of William Jenkins, 
who is Director of Homeland Security and Justice Issues at the 
Government Accountability Office. Without objection, we will 
include his testimony in the record of the hearing.
    [The prepared statement of Mr. Jenkins follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. We have a full panel of witnesses, and I 
appreciate their attendance.
    Mr. Albert Ashwood is the Director of the Oklahoma 
Department of Emergency Management and has held that position 
for 10 years. He joined the State of Oklahoma in 1988 and has 
served the department in various positions, including Deputy 
Director from 1995 to 1997. In his tenure at the Oklahoma 
Department of Emergency Management, Mr. Ashwood has overseen 
the distribution and administration of over $500 million in 
Federal and State aid. He also serves on FEMA's National 
Advisory Council and is President of the National Emergency 
Management Association.
    Thank you, Mr. Ashwood, for being here.
    Mr. Christopher Geldhart is Director of the Office of 
National Capital Region Coordination in FEMA. Before joining 
FEMA in April 2007, Mr. Geldhart worked for the State of 
Maryland as assistant director in the Governor's Office of 
Homeland Security. He is a 12-year veteran of the U.S. Marine 
Corps, and was formerly a strategy consultant for the 
consulting firm of Booz Allen Hamilton.
    Thank you for being here.
    Mr. Dewayne West is director of emergency services for 
Johnston County, NC, where he is responsible for supervising 
the emergency management program, fire marshal's office, and 
emergency medical services for the county. He has held this 
position for almost 20 years. Mr. West is a certified emergency 
manager by the International Association of Emergency Managers, 
and is a member of many industry boards and commissions.
    Thank you, Mr. West.
    Mr. Darrell Darnell is director of the District of Columbia 
Homeland Security and Emergency Management Agency. Mr. Darnell 
is responsible for operating and maintaining the District's 
emergency management infrastructure and coordinating the 
District's emergency response. Mr. Darnell joined the Homeland 
Security and Emergency Management Agency after serving as 
director of the Urban Areas and Exercise Program at IEM, a 
Louisiana-based national disaster and Homeland Security 
consulting company, as well as working at the Department of 
Justice and the Department of Homeland Security.
    Thank you, Mr. Darnell.
    And, finally, Professor Kathleen Tierney is professor of 
sociology and director of the Natural Hazards Research and 
Applications Information Center at the University of Colorado, 
Boulder. Professor Tierney has over 20 years of experience in 
the disaster field and has conducted research projects on a 
wide variety of subjects. She is also the author of dozens of 
articles, book chapters, and technical reports on the social 
aspects of hazards, disasters, and risks.
    To members of the panel, it is the policy of the Committee 
on Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask that you please rise and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that all of the 
witnesses answered in the affirmative.
    Members of the panel, as we requested with panel one, we 
ask that each witness give an oral summary of his or her 
testimony, and keep the summary under 5 minutes in duration. I 
want you to bear in mind that the complete record of your 
written testimony will be included in the record of the 
hearing.
    Let us begin with Mr. Ashwood. You may proceed, sir. Thanks 
again for your attendance.

    STATEMENTS OF ALBERT ASHWOOD, DIRECTOR, OKLAHOMA STATE 
  EMERGENCY MANAGEMENT AGENCY, PRESIDENT, NATIONAL EMERGENCY 
 MANAGEMENT AGENCY; CHRISTOPHER GELDHART, DIRECTOR, OFFICE OF 
NATIONAL CAPITAL REGION COORDINATION; DEWAYNE WEST, DIRECTOR OF 
    EMERGENCY MANAGEMENT FOR JOHNSTON COUNTY, NC, NATIONAL 
   ASSOCIATION OF COUNTIES, THE INTERNATIONAL ASSOCIATION OF 
  EMERGENCY MANAGERS; DARRELL DARNELL, DIRECTOR, DISTRICT OF 
COLUMBIA HOMELAND SECURITY AND EMERGENCY MANAGEMENT AGENCY; AND 
KATHLEEN TIERNEY, DIRECTOR, NATURAL HAZARDS CENTER, UNIVERSITY 
                      OF COLORADO, BOULDER

                  STATEMENT OF ALBERT ASHWOOD

    Mr. Ashwood. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today to express my views on the current 
collaboration between FEMA and the States on the issues of 
preparedness, response, and recovery in the post-Katrina 
environment.
    I come here today as the current president of the National 
Emergency Management Association, which represents State 
emergency management directors throughout the Nation and U.S. 
territories, and also as the state director of emergency 
management in Oklahoma.
    Nearly 2 years ago I testified before the House Committee 
on Transportation and Infrastructure, with the topic being 
Recovering from Katrina: Ensuring that FEMA is up to the Task. 
At that time I addressed the issue by asking which FEMA was 
being assessed, the one prior to the development of the 
Department of Homeland Security or the shell which was in place 
at the time Katrina made landfall. I talked about FEMA success 
stories of the 1990's and the long evolutionary trek FEMA took 
to get there. I talked about the disassembling of FEMA under 
the Department of Homeland Security structure and the total de-
emphasis of natural disasters from September 11, 2001, through 
July 2005. I also told the committee that moving FEMA out from 
under DHS and returning its funding and manpower to the pre-DHS 
levels would be a way to return FEMA to the level of efficiency 
we should all expect.
    Today, however, I cannot honestly say these recommendations 
would be enough. I still personally believe FEMA should be an 
independent agency, working directly for the President, but I 
would be naive if I were to sum up all the Agency's problems 
under this one issue.
    I believe all current issues can be summarized in one 
topic: communication. In my 19 years of emergency management, I 
have never experienced a more polarized environment between 
State and Federal Government. It seems that the Katrina Federal 
legacy is one of minimizing exposure for the next event and 
ensuring future focus is centered on State and local 
preparedness efforts.
    The perfect example of this attitude is illustrated in the 
National Plan review, which was conducted in 2006. States were 
told that this was an opportunity for all levels of government 
to sit together, review plans, identify shortfalls, and develop 
a strategy to address those shortfalls, both operationally and 
financially in the future. It seemed like a wonderful concept, 
right up until the time the national planning report card was 
published for each State; then the entire exercise seemed 
little more than an opportunity for the Federal Government to 
tell the press, We told you the States weren't prepared.
    Also, consider the National Response Plan--excuse me, now 
called the National Response Framework--which is to be released 
by DHS in the near future. You will be told that this national 
document was developed over many hours of collaboration between 
all levels of government and all disciplines. Let me be the 
first to say that this statement is totally inaccurate. I have 
queried my colleagues at both the State and local level and 
realized that no one knows what information this document 
contains, and we won't until we read it like everyone else in 
this room.
    Then there are the efforts currently being performed along 
the Gulf Coast to ensure that every future evacuee is accounted 
for and the public's expectation of government will be met. 
Millions of dollars are being spent on Federal plans to airlift 
individuals from Louisiana to Oklahoma, Arkansas, Tennessee, 
and other host States, yet the arithmetic doesn't work. The 
contractors can't find enough States to pledge support to host 
the number of evacuees in the New Orleans area, alone; 
therefore, I am constantly receiving calls from FEMA saying, 
can't you handle another 20,000, another 30,000? We will make 
sure your costs are reimbursed.
    Unfortunately, it seems a bigger issue is the revelation 
which appeared in the newspapers last week. One in three people 
surveyed along the Gulf Coast said they would ignore Government 
evacuation warnings. This is up from one in four in last year's 
survey.
    In Oklahoma I am lucky to have a boss, Governor Brad Henry, 
who realizes emergency management is a customer service 
business. More importantly, he understands that the customers 
we serve are at the local level, not in Washington. Following 
disaster events, he expects me to brief him on what assistance 
is being provided to the victims immediately and what 
assistance we are working to provide in the future. The 
Governor does not expect me to provide anything which is not 
available under the law, but he does expect me to extract the 
full potential of the law to the victims' advantage, and he 
expects the same level of customer service to be provided by 
the Federal Government in support of our State.
    Unfortunately, our recent dealings with FEMA in response to 
disasters our State has experienced over the last 18 months has 
done little to ensure customer service is a concern, or that we 
are even considered a customer. Since December 2005, Oklahoma 
has experienced wild fires, ice storms, tornadoes, and floods 
which have resulted in six major disaster declarations, one 
emergency declaration, and 26 fire management assistance 
grants. One might say that this level of activity is proof that 
the new FEMA is working diligently to make sure assistance is 
being provided as quickly as possible, but I would offer that 
each request has been viewed from a Federal perspective of what 
is the minimum we have to provide, as opposed to what is the 
need.
    Never before have I entered into so many discussions 
regarding interpretation of the law or the standard of 
assessment. I have even had one FEMA attorney question the 
authority my lieutenant Governor has to make a request for the 
State in the Governor's absence.
    Through this all, the Governor has asked me some very 
simple questions like: is FEMA this unresponsive because they 
are under DHS? Why does it take 2 weeks to make a decision on 
my request? Why does the FEMA region support our request and 
FEMA headquarters doesn't? Or even, why won't they return my 
phone calls?
    Regretfully, I have but one answer to each of these 
questions: I don't know, sir, but I do know this is not the way 
it is supposed to be.
    In conclusion, I would like to summarize the current 
philosophical differences between my State and FEMA with a 
brief illustration.
    In my operations center a sign defining what is expected of 
each employee has hung on the wall for many years. It simply 
says, if it is legal, moral, and ethical, just do it. While I 
realize much of this creed is subjective by nature, it does 
stress the reason we are all employed: to provide a service to 
our citizens during their time of need. With this in mind, I 
wonder what a similar sign would say if it were currently 
hanging on the wall of FEMA headquarters. Perhaps it would say 
something like, if it is legally concise and limits our 
Agency's exposure and potential liability, we should consider 
doing it, contingent, of course, on General Counsel's final 
opinion and coordination with the Office of Management and 
Budget and subject to a final vote of a tribunal convened to 
effectively disperse responsibility throughout the Federal 
Government.
    Whether this philosophy is a product of FEMA, DHS, the 
White House, Congress, or a combination of any or all of the 
above, I simply don't know. I only know it does not meet my 
expectations as either a State customer or a private citizen.
    Thank you.
    [The prepared statement of Mr. Ashwood follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    Mr. Geldhart.

               STATEMENT OF CHRISTOPHER GELDHART

    Mr. Geldhart. Thank you, Mr. Chairman, Ranking Member 
Davis. I would like to thank you for the opportunity to appear 
before the committee today. I would also like to recognize my 
colleague, Darrell Darnell, from Washington, DC, Homeland 
Security Emergency Management Director, and also the other 
distinguished members of this panel.
    I am here today to discuss the role of the Office of the 
National Capital Region Coordination and how we work with our 
local, State, regional, and Federal partners to enhance 
preparedness within the National Capital Region.
    I joined the Office of National Capital Region as its new 
Director 4 months ago, as the chairman said before earlier, 
when the office became a component of the newly reorganized 
Federal Emergency Management Agency. Also, as the chairman had 
mentioned earlier, I came from the State of Maryland. Part of 
my duties at the State of Maryland were to work within the 
National Capital Region on many different topics and areas such 
as critical infrastructure protection and many of the 
governance groups that govern how all three jurisdictions 
within the NCR come together to work together.
    As such, I have first-hand knowledge of the NCR, the 
geographic, economic, and socio-political complexity that 
exists here in the region.
    As you know, the NCR has some very key characteristics that 
make it different than a lot of other places. We are the fourth 
largest metropolitan population area in the United States, 
second largest public transportation system, robust private and 
public nonprofit sector. We are the seat of the national 
government and home to more than 230 individual Federal 
departments and agencies representing all three branches of 
Government. Most importantly, the NCR is home to more than 5 
million residents and 20 million tourists annually.
    The complexity inherent in the region was a key factor that 
led to many in Congress, including members of this committee, 
to establish the Office of National Capital Region Coordination 
in the Department of Homeland Security to oversee and 
coordinate Federal programs for and relationships with State, 
local, and regional authorities.
    The Office of National Capital Region Coordination 
leverages key partnerships to successfully execute the 
strategic priorities. These include the Joint Federal 
Committee, the Metropolitan Washington Council of Governments, 
Regional Emergency Preparedness Council, and the National 
Capital Region Senior Policy Group.
    Through these and other venues, the Office of National 
Capital Coordination coordinates daily with Homeland Security 
advisors, emergency management directors, chief administrative 
officers, first responder leaders, leadership from the private 
sector and nonprofit communities, as well as other Federal 
officials.
    The office has had several key accomplishments that it has 
completed prior to me coming into this office, and I would just 
like to highlight a couple of them.
    Mr. Kucinich. And I would ask the gentleman, you have about 
2 minutes left.
    Mr. Geldhart. Absolutely. Homeland Security governance 
structure, the way that things are operated here in the 
National Capital Region for planning and preparedness, response 
and recovery from Homeland Security; the strategic plan that 
was put in place, working with all the stakeholders I mentioned 
earlier; communications interoperability, which that 
accomplishment, alone, has led to advanced ratings in every 
category of DHS' interoperability score card for this region; 
and the National Capital Region's first responder partnership 
initiative landmark credentialing effort that allows first 
responders to move quickly through multiple jurisdictions in 
the event of an incident.
    Moving forward from here, my job, my goal, the way I see 
the office moving forward has three key objectives:
    First key objective, coordinated and integrated 
catastrophic planning effort, not only within the boundaries of 
the legislated, directed National Capital Region, but also 
those areas that surround this region that will be part of a 
major catastrophic event, such as evacuation, mass care, and 
mass shelter.
    Second, enhance the Federal coordination, focusing on the 
operational and strategic planning and decisionmaking within 
the region.
    Last, to create a more robust regional risk assessment for 
this region so we have a clear understanding of what we need to 
invest in, when, why, and how.
    I can go into detail with all of these different areas, Mr. 
Chairman, but in the interest of finishing up my introduction I 
would say by focusing on these key areas our office can help 
the NCR continue to be the model for regional planning 
throughout the Nation. Building upon the foundation that has 
already been constructed, the NCR will take tangible steps to 
enhance catastrophic planning, improve Federal coordination, 
and better understand risk from a regional perspective. At the 
end of the day, we are all committed to one goal, the continued 
safety and security of the region, its residents, and visitors.
    I would like to thank the chairman and the ranking member 
and the members of the committee for the opportunity to discuss 
the role of the National Capital Region, and I am happy to 
answer any questions you may have, sir.
    [The prepared statement of Mr. Geldhart follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    Mr. West, please proceed.

                   STATEMENT OF DEWAYNE WEST

    Mr. West. Thank you, Chairman Kucinich and Ranking Member 
Davis and distinguished members of the committee. Thank you for 
allowing me the opportunity to provide testimony on this 
critically important topic.
    I am Dewayne West, director of the Johnston County 
Emergency Services located in the great State of North 
Carolina. We are located midway between New York and Florida on 
I-95 at the crossroads of I-95 and I-40. With that, Johnston 
County connects to the Nation's north and south with east and 
west.
    Currently I am a member of the National Association of 
Counties [NACO], board of directors, and a past president of 
the International Association of Emergency Managers. Since the 
tragic events of September 11th, NACO and IAEM have formed a 
strong affiliate partnership, and today I provide this 
testimony on both their behalf.
    The International Association of Emergency Managers has 
over 3,800 members, including emergency management 
professionals at the State and local government levels, the 
military, private business, and nonprofit sector in the United 
States and other countries. Most IAEM members are U.S. city and 
county emergency managers who perform the crucial function of 
coordinating and integrating the efforts at the local level to 
prepare for, mitigate the effects of, resolve, respond to, and 
recover from all types of disasters, including terrorist 
attacks. Members include emergency managers from both large 
urban areas, as well as rural counties.
    Founded in 1935, NACO is the Nation's leading advocate for 
the county elected and appointed officials. NACO advances 
issues with a unified voice before the Federal Government, 
improves the public's understanding of county government, 
assists counties in finding and sharing innovative solutions 
through education and research, and provides value-added 
services to save counties and taxpayers money. NACO's 
membership totals more than 2,000 counties, representing over 
80 percent of the Nation's population.
    Again, I am pleased to join you today to present our 
position on these issues.
    Since Hurricane Katrina ravaged the Gulf Coast in the fall 
of 2005, Federal, State, and local elected officials, emergency 
managers, and other public safety officials have worked to 
strengthen the Nation's preparedness and response to future 
hazards. While States, local governments, emergency managers, 
and other public safety officials across the Nation focused on 
strengthening and revising pre-existing emergency preparedness, 
prevention, response, and recovery plans, and in educating 
residents during the aftermath of Hurricane Katrina, Congress 
focused their attention on strengthening the agency most 
associated with the Federal Government's response to a 
catastrophe, that being the Federal Emergency Management 
Agency.
    After most of the debate, Congress included the Post-
Katrina Emergency Management Reform Act of 2006 in the fiscal 
year 2007 appropriations bill for the Department of Homeland 
Security. Local governments, emergency managers, and other 
public safety officials across the Nation applauded the hard 
work of Congress in arriving at these comprehensive revisions 
to strengthen FEMA. It was clear that FEMA's ability to respond 
had deteriorated after its inclusion in the Department of 
Homeland Security, and this vital link in the emergency 
management system needed to be repaired.
    The legislation made a number of changes to FEMA, and we 
supported many of these provisions, specifically: The 
strengthening of the role of FEMA Administrator, and the 
assurance that the Administrator would be principal advisor to 
the President, DHS Secretary, and Homeland Security Council 
during times of disaster; the restoration of preparedness 
functions with response and recovery functions within Federal 
Emergency Management Agency, thus representing a return to 
established emergency management doctrine, all hazards 
integrated, all phases; the assurance that FEMA Administrator 
would have a demonstrated ability and knowledge of emergency 
management and/or Homeland Security and at least 5 years of 
executive leadership and management experience; strengthen FEMA 
regional offices and integrated regional preparedness 
initiatives and resources; enhance training exercises and 
technical assistance for Federal, State, local governments, and 
first responders; creation of FEMA regional advisory councils 
in existing FEMA regional offices; and the establishment of a 
formal and effective mechanism for identifying and deploying 
local assets for effectively strengthening EMAC, which you have 
heard about.
    Prior to these changes and since creation of the Department 
of Homeland Security, FEMA can best be characterized by a cycle 
of neglect, crisis, and further neglect. In fact, I would like 
to refer to this cycle as the spare tire theory, which you have 
heard expounded on earlier today. It seemed unusual to hear 
that coming back from the Federal level.
    This theory suggests that we forget about or neglect the 
condition of our car's spare tire until we have a flat, and 
then we hope it is in good enough shape to get us to where we 
need to go. Likewise, we tend to forget about and neglect our 
system of emergency management until we need it.
    As we explore today's topic, I strongly urge our Federal 
partners to heed the lessons we should have learned from the 
past.
    Overall, I cannot say with certainty that FEMA is ready for 
the next catastrophic disaster. The changes legislated by 
Congress only went into effect last March. While we applaud the 
effort of Congress to legislate needed changes, we are very 
concerned that the law may not be implemented as intended.
    We applaud the efforts being made by Administrator Paulison 
and Deputy Administrator Johnson, but we are concerned that 
they may not have the protections within DHS that they need and 
Congress expects.
    Mr. Kucinich. I want to thank the gentleman. Your time has 
expired.
    Mr. West. I am sorry.
    Mr. Kucinich. No, it is fine. You are doing very well. What 
we will do is to include your entire statement in the record of 
the hearing. It is quite extensive. I have read it.
    Mr. West. Thank you.
    Mr. Kucinich. It is going to contribute to enhancing the 
work of this committee, and I think we will be able to get to 
some of the questions, which will enable you to draw out some 
of the other contributions that you have made.
    I want to thank you, Mr. West.
    Mr. West. Thank you.
    [The prepared statement of Mr. West follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. We are going to move on to Mr. Darnell now 
for 5 minutes. Thank you.

                  STATEMENT OF DARRELL DARNELL

    Mr. Darnell. Thank you, Mr. Chairman, and good afternoon. 
Good afternoon Congressman Davis and members of the 
subcommittee.
    I am Darrell Darnell, director of the District of Columbia 
Homeland Security and Emergency Management Agency. I am pleased 
to have the opportunity to testify before you today about the 
extent to which the District of Columbia is prepared to respond 
to emergencies and disasters and our collaboration with our 
partners in the National Capital Region.
    During the almost 6 years since the terrorist attacks of 
September 11, 2001, and the 2-years since the Gulf Coast 
devastation from Hurricane Katrina, the District and the NCR, 
as a whole, have worked independently and in collaboration with 
our partners at the Federal, State, and local levels to enhance 
and improve our abilities in five critical areas.
    Transportation and housing. Evacuating the District is a 
daunting challenge under any circumstance. Moreover, a 
significant portion of the population relies exclusively on 
public transportation, necessitating government assistance 
during an evacuation effort. Acknowledging these difficulties 
and having learned lessons from the Gulf Coast experience with 
Hurricane Katrina, the District has conducted regular 
evacuation drills, such as Operation Fast Forward, in 
conjunction with the July 4th festivities on the National Mall, 
and is leading the NCR's efforts to coordinate evacuation and 
sheltering plans throughout the region.
    Understanding that any evacuation undertaken in the 
District will quickly involve our regional partners, we have 
worked closely with them to develop a number of tools that 
would assist decisionmakers in all of the jurisdictions during 
an emergency. These resources include regional unified 
evacuation route profiles; an inventory of vehicles, drivers, 
transportation pickup points and standing agreements; as well 
as shelters that could be activated across the region in the 
event of an emergency.
    Medical assistance. The ability to respond to the health 
and medical consequences of a large-scale incident requires a 
combination of plans, facilities, properly trained clinical 
staff, pharmaceuticals, equipment, and supplies, broadly 
interpreted as medical surge capacity. The District, in 
coordination with the region, has steadily increased bed 
capacity and has added 300 hospital beds within the district's 
borders.
    To assist in preventing the spread of a biological agent, 
the District's health community has been provided with the 
syndromic surveillance system. This system provides an early 
warning capability that alerts the public health community to 
impending health situations, allowing them to take proactive 
measures to stop a potential public health emergency. This 
system connects pharmacists, hospital emergency rooms, schools, 
veterinarians, laboratories, and emergency medical services 
information and spots trends within the data to begin to track 
an outbreak and assist in identifying the potentials for it.
    Security and law enforcement. As the Nation's Capital, the 
District of Columbia presents a unique environment for security 
and law enforcement. The District is home to numerous law 
enforcement agencies, with more per capita than anywhere else 
in the country. These agencies work together in a collaborative 
fashion on a daily basis to provide security to the citizens of 
the District, as well as Federal Government agencies and 
employees.
    Logistics. In addition to the accomplishments noted in 
transportation and housing, our efforts in the area of 
interoperable communications, a primary focus for the region 
have yielded significant improvements in our ability to share 
information and communicate across jurisdictional boundaries. 
In an assessment conducted by DHS, the National Capital Region 
ranked in the top 10 percent of urban areas of the Nation for 
advanced interoperable communication.
    Collaboration with the Office of National Capital Region 
Coordination. Since its establishment in March 2003, the Office 
of National Capital Region Coordination has worked closely with 
the jurisdictions in the NCR to help ensure regional 
cooperation and coordination.
    However, one final comment. The restructuring of the 
Federal response structure to include a principal Federal 
officer [PFO], in addition to the full coordinating officer. As 
a State emergency management director, it is my opinion that 
adding additional Federal officials to the process may lead to 
confusion about the roles and responsibilities of each. It 
would be helpful to have only one Federal official assigned for 
all the events, versus multiple Federal officials for different 
incidents. Clarification of the role and responsibility of that 
official would also improve the process.
    With the leadership of Chris Geldhart, I believe ONCRC will 
continue to work with its partners to ensure further progress 
in preparing and securing the NCR against disaster, whether 
natural or manmade, in the coming years, and we look forward to 
our continued success.
    This is not a part of my prepared testimony, Mr. Chairman. 
The one thing that I think we have been missing from the 
discussion today, if I may respectfully say, is the role of 
citizens in our preparedness efforts. Here in the District of 
Columbia since 2002 we have trained over 2,400 volunteers in 
citizen emergency response training. We signed up 39 
neighborhoods with over 60 volunteers to update and to develop 
community preparedness plans for their specific neighborhoods 
in all eight wards of the cities.
    This fall, as a part of the National Preparedness Month, 
and at the start of our school year, we are going to implement 
our Commander Ready program, where we signed up 75 volunteers 
to teach over 650 school-aged kids in the grades of two to 
five, 5 to 13 in age, about emergency preparedness and Homeland 
Security, because we really believe that this effort is not one 
of government only; citizens also have to take part and take an 
active role in preparedness efforts.
    Thank you.
    [The prepared statement of Mr. Darnell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I would like to just respond briefly to what 
you said.
    I have read the testimony of each person here, and you are 
all making a contribution by being here and it is very 
important that you are here, and I look forward to Ms. 
Tierney's testimony momentarily.
    I want to say that the point that you make about citizen 
involvement is absolutely critical. So what I would ask you to 
do is to provide this committee and our staff here with the 
information that you use to advance that program. Show us the 
manuals or models that you use, because it may be that this is 
something that would be important for the entire Nation. I 
would ask that you provide it to the staff, and I also would 
like an extra copy so that I can review it personally.
    Mr. Darnell. Yes, I will do that.
    Mr. Kucinich. I think it is a very valuable testimony here.
    Mr. Darnell. Thank you, sir.
    Mr. Kucinich. I would like to thank you.
    I would ask Ms. Tierney to proceed with your testimony for 
5 minutes. Thank you.

                 STATEMENT OF KATHLEEN TIERNEY

    Ms. Tierney. Thank you, Mr. Chairman. Thank you for giving 
me the opportunity to be here to testify today.
    It is almost impossible for an academic to say anything in 
5 minutes, but I will do my best.
    The new FEMA is in the process of being created; however, 
we don't know at this time how proposed and in-process changes 
will affect the Agency's ability to respond in the future, 
particularly to catastrophic events. Major changes must be 
instituted. The necessary resources must be applied to address 
glaring deficiencies in our inter-governmental system of 
emergency management, and those given responsibility for the 
implementation of new reforms must be held accountable through 
strong oversight at various levels of government.
    In my testimony I discuss seven areas that require 
immediate attention.
    First is to ensure that the Nation develops a fully 
functional emergency management system, intergovernmental 
emergency management system, placing a priority on the Nation's 
most vulnerable urban areas.
    The Nation does not currently have an effective 
intergovernmental system for managing hazards and disasters. 
What now exists is a patchwork or lily pad arrangement within 
which some entities have the knowledge, resources, and 
political clout to deliver effective programs, but the majority 
do not. This is termed in emergency management scholarship the 
leaders and laggers problem.
    At the same time, as we strengthen the leaders and assist 
the laggers, the efforts that we make have to be risk and 
vulnerability based. The potential for catastrophic losses from 
disaster events is well understood. Metrics already exist to 
assess the vulnerability of communities, and we know where the 
problems are.
    Second, ensure that an all-hazard approach to emergency 
management is implemented at all levels of government. The 
Federal Government's official position is supportive of an all-
hazards approach. At the same time, investments in terrorism-
related programs far outstrip those devoted to other hazards.
    As Ms. Norton said earlier, the scenarios which communities 
around the country were required to prepare as part of the 
national preparedness goal are skewed toward terrorism-related 
threats. State and local agencies that receive funding for 
terrorism-related programs will naturally focus on terrorism 
unless something is done.
    Third, ensure that FEMA and other crisis-relevant 
organizations center their efforts on comprehensive emergency 
management. We are talking today about preparedness and 
response, but what we need is a return to the pre-September 
11th emphasis on the four phases of the disaster cycle: 
mitigation, preparedness, response, and recovery.
    Mitigation is particularly important so that we can have 
smaller disasters to respond to, because we have less loss and 
disruption, and it is also proven to be cost effective.
    Again, long-term recovery is very important. That the 
Nation lacks a strategy for large-scale disaster recovery is 
all too glaringly evident right now in the Gulf region.
    Fourth, explore organizational arrangements and authorities 
that depoliticize high leadership positions within FEMA, DHS, 
and other crisis-relevant organizations. There have been a 
number of different suggestions for how this might be done, 
including making the head of FEMA something like the head of 
the Federal Reserve System or the Government Accountability 
Office.
    Fifth--and we come back to Mr. Darnell's comments--invest 
in and mobilize institutions that provide the backbone for 
effective emergency management.
    We have to recognize that many of the systems that we will 
be relying on in future disasters, such as medical and health 
care systems, are already over-strained. We also know that the 
critical information on which effective disaster responses 
depend is largely in private hands. We need public/private 
partnerships.
    We also need to expand and strengthen the role of civil 
society institutions in the management of hazards and 
disasters. The program that Mr. Darnell describes is exactly 
what I am talking about in my testimony. Mobilize the critical 
civic infrastructure. One logical way to do this is to begin 
first with organizations that normally provide services to at-
risk populations and that would be required to do so even more 
during disasters.
    Sixth--and this echoes a recommendation by the Government 
Accountability Office--develop and implement a strategy for 
work force planning for emergency management, a strategic work 
force initiative. Again, this is something that the GAO has 
talked about, and I provide some more details in my written 
testimony.
    Finally, build oversight accountability and evaluation into 
emergency management programs at all levels of government. All 
the reports after Katrina talk about the need for greater 
transparency and accountability, but it is astonishing that we 
have invested so much in so many initiatives without systematic 
research on program effectiveness.
    At this time, the goal of evidence-based emergency 
management remains illusive, but the need for objective 
assessments of programs and practices is clearer than ever 
before. Reasonable people might well wonder which emergency 
management practices actually achieve their intended results, 
where programs are falling short, and which investments are 
likely to bring the greatest return. Likewise, they might 
wonder whether the communities in which they live will be able 
to meet their needs in disasters.
    The Federal Government owes the Nation answers to questions 
like these.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Ms. Tierney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the witness and all members of the 
panel. We are going to go to questions now. The Chair will 
recognize our ranking member of the full committee, Mr. Davis.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you very much. I apologize for 
not being able to stay for additional questions, but I have a 
meeting with Chairman Waxman down the hall.
    Let me start, Mr. Ashwood, just on your comment that if it 
is legal, ethical, or moral, just to do it. I mean, sometimes I 
think in the bureaucracy that is what you need is people who 
are willing to get outside the regulations and the box, and in 
our Katrina report some of the real hearings are those that 
were able to step outside the box, see an emergency situation, 
and respond.
    Unfortunately, Government doesn't generally reward that 
kind of behavior. It gets punished. In private sector you get a 
promotion. You don't need to say anything, but I think that is 
what it needs to be, customer service. You have to empower the 
guy at the window or that person on the street to make a split 
decision. They are going to make bad decisions once in a while, 
and we need to be careful about second-guessing everything they 
do, but that is what it takes in emergencies. Nothing is ever 
quite neat and fit and wrapped in a neat package when it comes 
to emergency situations.
    My real questions, Mr. Geldhart, are for you, because I 
represent parts of the National Capital Area. We had an issue a 
few years ago with Tractor Man. Do you remember Tractor Man?
    Mr. Geldhart. Yes, sir.
    Mr. Davis of Virginia. It was a disaster. It held up, I 
think, three or four rush hours while we were waiting to make a 
decision, and there was nothing. Where are we today? If a 
similar situation occurred today, do you step into the breach? 
Are we well coordinated? And for emergencies, whether it is a 
hurricane or a snow storm or, heaven's sake, a terrorist attack 
of some kind, have we run any regional models or tests to show 
how everybody is coordinating?
    Mr. Geldhart. Thank you for the question, sir. To answer 
your question as far as regional models, I am not aware of a 
regional model that we have run to see if everybody is 
prepared, but what I would offer is what has happened in just 
the 4-months that I have been here, to answer your question.
    One of the first things that came up when I came onboard 
was July 4th. In getting into the breach of the first real 
major event that happened since I have been here and going to 
all the coordination meetings, all the different folks that 
were involved and the way that they brought things together was 
amazing to me, even though I have worked here for 3 years 
prior, to see the Federal, State, and local coordination, and 
it showed through in a couple of ways.
    First, we had a storm that came in at 5 p.m., with a packed 
Mall with a bunch of people waiting for the fireworks to 
happen, and we had to evacuate the mall. The way that flowed 
from the National Weather Service giving the update to the 
Federal folks within the Park Police that sent out the message, 
since they were the lead Federal agency that said we need to 
get everybody off the mall, to D.C.'s Emergency Management 
Homeland Security Agency, who then helped communicate that word 
out to all of the folks who were on the Mall, to help execute 
and get everybody off the Mall, MPD being there, Metropolitan 
Police Department being there. And then once again going back 
to the outstanding Federal side and opening up all the 
buildings that we had along the Mall so that folks had a place 
to go and we had a place where they could get in and out of the 
storm.
    Mr. Davis of Virginia. I was out working parades in Fairfax 
and stuff. How did it go downtown?
    Mr. Geldhart. I think that worked phenomenally, and it 
worked phenomenally because the folks on the ground, sir, have 
been doing this for years. What we have been able to do is we 
have been able to start to attach on, like a Lego, attach on 
the next level of what we need to do to make this thing come 
off well.
    Mr. Davis of Virginia. Who coordinated that?
    Mr. Geldhart. That was a mutual coordination effort. When 
we look at these type of incidents, that one in particular the 
lead agency in that was Park Police, because they are in charge 
of the Mall, but everybody falls in behind that, and whether 
that be D.C. Emergency Management Agency, whether it be 
Metropolitan Police Department, whether it be Capital Police, 
if any of those folks are in the lead the others will fall in 
behind, because this is what we do. We are either in the lead 
or we support in this region.
    Mr. Davis of Virginia. You have issues making sure, if 
there is any kind of an attack or a huge emergency of some 
kind, hospitals moving people in and out is the most difficult, 
getting first responders in, making sure that you are going to 
draw on the whole region. Do we have agreements with Maryland, 
the District, Virginia, where they can come from all over? 
There are differences in tort laws, liability issues, all of 
those kinds of things if it happens that gives somebody's 
hesitancy to move people in if they could get sued and the 
like. Do we have regional agreements that tie that together?
    Mr. Geldhart. We do have regional agreements in place for 
mutual aid, sir. There are MOUs in place for the regions of the 
National Capital Region to provide mutual aid to each other.
    Mr. Davis of Virginia. And you feel confident, if there is 
something, that you can draw on all the resources of the 
region, including National Guard, in case of an emergency to 
bring people in very quickly?
    Mr. Geldhart. Not only myself, sir, but whoever is the lead 
in that particular case.
    I can give you one more example. Just this past weekend we 
had a WMATA worker--Washington Metropolitan Area Transit 
Authority worker--notice some dead birds around one of the 
stations, and in that raised awareness, rose it up to the WMATA 
operations center, who then called out to several other 
stations and they found several other dead birds.
    In that instance now all of the sudden we have what 
potentially could be a bunch of different things. Who knows 
what it is? What we were able to do was coordinate throughout 
the region. We got on a conference call. We brought everybody 
together and we said, OK, what do we know right now? What do we 
know that we can act on? Who is in the lead? Who is in charge?
    That happened very quickly, and very quickly we recognized 
that WMATA was in charge. They were chasing down what they were 
doing. We had the National Terrorism Task Force there, the 
Joint Terrorism Task Force was there, Washington Field Office 
was there, I was on the phone, all of the Homeland Security 
advisors and emergency management directors coordinated that.
    Mr. Davis of Virginia. Let me suggest this. I mean, I think 
some of the things that are helpful that are here is we had the 
test run on Hurricane Pam in New Orleans, and it wasn't 
executed, but those are the kinds of things that I think we 
need to be ahead of the curve.
    Mr. Geldhart. Yes, sir.
    Mr. Davis of Virginia. You can never predict with precision 
exactly what emergency you are going to have to encounter. It 
just never perfectly fits the scenario.
    Mr. Geldhart. That is right, sir.
    Mr. Davis of Virginia. But in the episodes we have had 
today, I am happy that you are discussing them all, evacuation, 
because that is an indication of everybody working together. 
But in the other episodes we have seen, whether it was the 
Janitors for Justice, whether it was the Tractor Man, whatever, 
we have in many cases, I think, seen an inability to get the 
right decisions made in a timely manner. Evacuation plans are 
difficult.
    Mr. Geldhart. Yes, sir.
    Mr. Davis of Virginia. What we need, I think, from our 
perspective, just speaking for myself, are some test models of 
how everybody responds, what would be the protocols in a 
situation like that. We remain a target. The new Homeland 
Security bill that we just passed starts putting more money 
into this region and areas that face this.
    Weather can be anywhere, but some of the other issues that 
may face us could be far more severe. I think running tests and 
models and all that kind of stuff can be very important.
    So if you could work with us in terms of what you might be 
looking at in those areas, what the results are, if you could 
make it public, but what the plans are, it would make us feel a 
lot more comfortable.
    We have had episodes in this region where one guy having a 
bad day on the bridge has held up traffic along the East Coast 
for hours; where one guy driving a tractor on the Mall holds it 
up and emergency vehicles can't get through. When you see that, 
you just sit and wonder what if it is a real attack.
    I am glad you are back on the job. I hope you are 
coordinating appropriately and have been out to Fairfax and out 
to Prince William and out to Arlington and Alexandria and 
Prince George's and all the other jurisdictions in here. The 
important thing: do you think they are comfortable with the 
plans at this point, or are you still getting your feet wet?
    Mr. Geldhart. Your question, sir, was whether they are 
comfortable with the plans that are in place?
    Mr. Davis of Virginia. With the plans that are in place and 
the coordination, or do you think we are still getting our feet 
wet?
    Mr. Geldhart. I think that at the tactical level, on the 
ground, as I said earlier, our firefighters within this region, 
they go from a one-alarm to a four-alarm fire in a given day. 
They work with the different jurisdictions within this region. 
I think those folks are ready. I think they are up to the task 
and I think they will perform admirably in any condition we 
throw them into.
    I think our coordination and the piece that you are 
mentioning, sir, that needs to be better--and that I think we 
would all agree on needs to improve--is at the strategic and 
operational level. I think that is a constant area of 
improvement that we need to work on.
    One of my top priorities, catastrophic planning, we have to 
do that in this region. We have to get deeper into that. And it 
is not a one-person show. This is a team sport here in the 
National Capital Region. At any given time, somebody is the 
quarterback, but we are going to drive from my office to have 
catastrophic planning done.
    Mr. Davis of Virginia. Well, welcome aboard.
    Mr. Geldhart. Thanks.
    Mr. Davis of Virginia. Let me just say this may be the 
subject of a future hearing, I may suggest to the chairman, 
just for this region, because you have Congress and the 
operations of Government and everything else, and we hope to 
continue to stay in correspondence with you on this. Thank you 
very much.
    Mr. Geldhart. Thank you, sir.
    Mr. Kucinich. Thank you, Mr. Davis. I concur that there is 
a reason to have a specific hearing with respect to this region 
and to the District.
    In the time that we have remaining before we wrap up this 
hearing for the votes, I want to direct some questions to the 
members of the panel.
    First of all, to Mr. Ashwood and to Mr. West, within your 
own sphere of activities, do you feel that you are prepared to 
meet the disasters, let's say, in your State, your respective 
States?
    Mr. Ashwood. I will go ahead and tackle that question 
first. I feel we are better prepared every day. Do I feel we 
are prepared to meet any disaster? I would have probably told 
you yes prior to the Oklahoma City bombing in 1995, and I would 
have been totally wrong. I would probably told you yes before 
the ice storms we had in 2000 and 2001, and I would have been 
totally wrong.
    Mr. Kucinich. So what do you expect from the Federal 
Government? I think that is a fair question to ask.
    Mr. Ashwood. What I expect from the Federal Government, I 
expect their support. I expect their participation in the 
planning process. I think that is the key here. It is not the 
plan, it is the process. It is making sure that all levels of 
government are in on the front end of the process so that we 
all know what each other is doing so we can support each other 
more effectively when the event does occur. That is what I 
expect.
    Mr. Kucinich. So at this moment what would be your 
assessment of the ability of the Federal Government to do that?
    Mr. Ashwood. I would say, as I did in my testimony, my 
biggest concern is the communication with the Federal 
Government on what to expect. I don't know if I am talking to 
FEMA or DHS or the White House or who exactly is calling the 
shots.
    Mr. Kucinich. Mr. West.
    Mr. West. I would concur with his comments. To say we are 
ready, I would say we are as ready as we can be, given the 
resources and the funding, personnel, etc., that we have had 
over the last 20 years. A good emergency manager probably would 
refrain from ever saying they are ready, but we are getting 
ready.
    Mr. Kucinich. Let me go back to Mr. Ashwood a minute. Is it 
your opinion that, in light of the testimony that you have 
heard today on the previous panel and in light of what you have 
experienced and heard based on your work for the State of 
Oklahoma, does it appear that there is some shifting of 
responsibility back to the State and local level as a means of 
trying to forego Federal responsibility for its appropriate 
role in helping to coordinate and provide resources for a 
disaster?
    Mr. Ashwood. Probably not. I will say this because I do 
have a great deal of respect for Dave Paulison. I think he is 
trying to do the right thing. I think what the real issue here 
is, though, is that disasters are a bottom-up event. You have 
to have a strong base. The stronger local government is, the 
stronger the State is, the stronger the individual citizen is, 
and the more prepared that they are the better prepared that we 
are nationally.
    Mr. Kucinich. So if the communication is there, then you 
have the chance for preparation?
    Mr. Ashwood. Absolutely, sir.
    Mr. Kucinich. Would you agree with that, Mr. West?
    Mr. West. Yes, sir, and at the end of the day people like 
me and my elected officials have to face our citizens, and they 
say we did well or we did not. Certainly FEMA and our State is 
going to be involved in that, but we have to live with these 
people after everybody else goes home.
    Mr. Kucinich. I want to go back to the issue of 
preparedness. We are still working with the old National 
Response Plan. I mean, they haven't really implemented a new 
one. They are talking about it. How does using this old plan 
affect your State of Oklahoma and your State of North Carolina, 
Mr. Ashwood?
    Mr. Ashwood. I don't think it does, really, to tell you the 
truth, and I was part of the initial writing team of the first 
National Response Plan. Frankly, I didn't know what was wrong 
with the Federal Response Plan prior to that except that there 
needed to be a national plan, which makes perfect sense, to 
incorporate all levels of government in the process. When that 
didn't happen, I lost a lot of faith in the National Response 
Plan in any form.
    Mr. Kucinich. Well, there is a new plan. How long do you 
think it will take to implement a new plan once it is put in 
place?
    Mr. Ashwood. Having not read it, I have no idea, sir.
    Mr. Kucinich. But it does take time to implement a plan?
    Mr. Ashwood. Absolutely.
    Mr. Kucinich. Mr. West.
    Mr. West. Yes, sir, I agree. I concur with his comments. We 
felt good about the fact that we were going to be included in 
some of the initial work, but then we have not seen any results 
from that at this point.
    Mr. Kucinich. So you don't know if the input that you 
provided has been included in the plan?
    Mr. West. That is correct, sir. I think one of the 
frustrating things is that we attend listening sessions and 
various meetings, and we rarely see the results of those 
meetings being implemented, or suggestions, or things of that 
nature.
    Mr. Kucinich. Now, were you told, Mr. West, that a high-
level DHS official was rewriting the plan but with no input 
from State and local officials?
    Mr. West. That is correct, and I was pleased to hear today 
that this is going out in draft form for comment, because we 
were not aware of that until today.
    Mr. Kucinich. OK. I think this committee would be 
interested to know, when the draft report gets to the State 
level, whether or not that draft report reflects the input from 
the State in terms of enhanced communication.
    Mr. Ashwood.
    Mr. Ashwood. I would be glad to, sir.
    Mr. Kucinich. Mr. West.
    Mr. West. Absolutely.
    Mr. Kucinich. Now, to Mr. Ashwood and Mr. West, you are 
concerned that your input be included in that?
    Mr. Ashwood. Absolutely.
    Mr. Kucinich. I want to go to the decisionmaking at FEMA 
before we conclude. Many people have expressed concern to our 
staff that decisions at FEMA are not being made by on-the-
ground regional directors, but instead are being made by 
bureaucrats in Washington; therefore, decisions that used to be 
made by experienced management coordinators who were most 
knowledgeable about the needs of the area are being overruled 
by attorneys and people in the Office of Management and Budget.
    Now, Mr. Ashwood, I understand that you faced this problem 
recently when you attempted to get a declaration of emergency 
in Oklahoma; is that correct?
    Mr. Ashwood. Yes, sir, that is correct.
    Mr. Kucinich. And what would you tell this committee that 
might facilitate, let's say, a quick response to a State that 
needed a declaration? What could we do to make sure we serve 
your constituency?
    Mr. Ashwood. I could illustrate the frustration that we 
had, and we have actually had it a couple of times this year. 
The most recent request we had, our Governor on July 5th of 
this year requested that four counties be declared for 
individual assistance because of torrential rainfall and 
flooding that we had across the State from May 24th to that 
time period, over a month's time. We had record rainfall and we 
had documentation from the National Weather Service showing 
record rainfall during that entire period of time.
    We requested four counties be declared for individual 
assistance. We requested that the time period begin May 24th to 
the present. And we requested that direct Federal assistance--
that would be Federal resources such as water and ice and that 
type of thing--be made available for these four counties.
    The turnaround on that request was exceptional. It was 
within 24 hours. However, receiving the answer to our request, 
we received two counties for declaration, no direct Federal 
assistance nor no mention of direct Federal assistance, and the 
timeframe had changed from June 10th to the present rather than 
May 24th to the present.
    Now, while I am not saying that we were totally correct on 
everything, it would seem to me that if there was a problem 
with our request, the Governor's request to the President, that 
a phone would have been picked up somewhere along the line and 
said, look, we have a problem here, can we talk about it and 
work this thing out, rather than just making a unilateral 
decision and saying, Here, take it.
    Mr. Kucinich. The interesting thing about your testimony 
and what we have heard from Mr. West is that the lack of 
communication in this era of cell phones and pagers and every 
manner of being able to contact people instantaneously, it 
still comes down to human relations, people talking to people 
saying how do we work this out and how do we come together.
    I think that your testimony today will send a message to 
FEMA of the urgency of not only including you in the planning, 
but also in tightening up lines of communication so that 
mobilization in the case of disaster can happen. I think that 
the testimony of Mr. Tierney in terms of the specific steps 
that have to be taken is really important in this regard, and I 
am hopeful that FEMA will reflect on it.
    Mr. Darnell, you have given us an image of a system that 
you are really working to test, but also involve more and more 
people. When I heard you speak, it reminded me of the kind of 
preparedness that we saw communities involved with in Y2K, 
which was a kind of model. Had you thought about that?
    Mr. Darnell. Well, I wasn't at the local level during Y2K, 
but a lot of my experiences are born out of my previous 
experience at Department of Justice and DHS, particularly in 
interoperable communications and in the planning aspects of it.
    One of the things that we try to do in the NCR, going to 
Congressman Davis' concerns about the Tractor Man incident, all 
of our emergency operations centers now can work an event or an 
incident using a common operating picture, and we couldn't do 
that in the past, and so we have software programs called 
WebEOC that all 140 emergency operations centers in the 
National Capital Region are using. What that allows us to do is 
have real-time situational awareness looking at the same 
information, sending out the same messages on the same 
information system and sharing that information. That makes it 
easier to communicate.
    Mr. Kucinich. Mr. Darnell, I want to thank you for that 
response.
    I have just been notified that we have about 4 minutes left 
on a vote.
    We have had an extensive hearing today, and the 
participation of each and every one of the witnesses here has 
been essential for us to be able to continue our efforts to 
make sure that this country is better prepared to be able to 
meet the needs of disasters and emergencies.
    This has been a hearing of the Committee on Oversight and 
Government Reform of the House of Representatives. I am Dennis 
Kucinich, and I am the Chair of the Subcommittee on Domestic 
Policy. I have been privileged to Chair these proceedings with 
the permission and good graces of Chairman Waxman, who is the 
Chair of our full committee. We have had a very extensive 
discussion that started at 10. The panel has been patient, and 
your participation has been invaluable.
    The committee is going to continue to proceed to explore 
the issues that came out as a result of your testimony and the 
previous panel's.
    At this point I want to thank the panel. You are excused.
    This concludes the hearing of the Committee on Oversight 
and Government Reform, the hearing on FEMA preparedness on 2007 
and beyond. Thank you very much. Good afternoon.
    [Whereupon, at 2:07 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Edolphus Towns and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
